       United States Department of State
       and the Broadcasting Board of Governors
       Office of Inspector General




SEMIANNUAL REPORT
TO THE CONGRESS
October 1, 2011 to March 31, 2012
     Summary of OIG Accomplishments

Financial Results
Questioned costs
  Issued during the reporting period                             $2,232,615
  Management decision during the reporting period                $8,513,477
Recommendations for funds to be put to better use
  Issued during the reporting period                            $11,338,121
  Management decision during the reporting period                $7,794,298
Investigative monetary recoveries                                 $212,520


Investigative Results
Cases opened                                                            57
Cases closed                                                            45
Judicial actions                                                         9
Administrative actions                                                  17
Hotline and complaint activity                                        1,055


Reports Issued:                                                         53




                      Requests for additional copies
               of this publication should be addressed to:
                         OIG-Reports@state.gov
                  Department of State Publication 11462
                        Office of Inspector General




         Cover photo: Red sand dune in the Wadi Rum desert, Jordan.
                                 TABLE OF CONTENTS

MESSAGE FROM THE DEPUTY INSPECTOR GENERAL ������������������������������������������ 1
EXECUTIVE SUMMARY�������������������������������������������������������������������������������������������������� 3


DEPARTMENT OF STATE
OFFICE OF AUDITS ���������������������������������������������������������������������������������������������������������� 9
OFFICE OF INSPECTIONS�����������������������������������������������������������������������������������������������19
OFFICE OF INVESTIGATIONS�������������������������������������������������������������������������������������� 27
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES�������������� 31
APPENDIX 2: REPORTS ISSUED������������������������������������������������������������������������������������ 33
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES �������������� 37
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS������������ 39
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS�������������������������������������� 53
APPENDIX 6: PEER REVIEWS CONDUCTED BY OTHER OFFICES
	 OF INSPECTOR GENERAL�������������������������������������������������������������������������������������� 55


BROADCASTING BOARD OF GOVERNORS
OFFICE OF AUDITS �������������������������������������������������������������������������������������������������������� 59
OFFICE OF INSPECTIONS���������������������������������������������������������������������������������������������� 61
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS
	 INVESTIGATIVE ACTIVITIES�������������������������������������������������������������������������������� 63
APPENDIX 2: BROADCASTING BOARD OF GOVERNORS REPORTS ISSUED�����65
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES �������������� 67
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS������������������ 69
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS�������������������������������������� 71


CONGRESSIONAL AND PUBLIC AFFAIRS ACTIVITIES������������������������������������������ 73
ABBREVIATIONS�������������������������������������������������������������������������������������������������������������� 77



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012                                 ii
iii
MESSAGE FROM THE DEPUTY
INSPECTOR GENERAL

                             I am pleased to present to Congress the Office of Inspector
                             General (OIG) Semiannual Report for the Department
                             of State (Department) and the Broadcasting Board of
                             Governors (BBG). This report covers the period ending
                             March 31, 2012, as required by the Inspector General Act
                             of 1978, as amended.
                             Our pledge to work with the highest regard for integrity
                             and transparency is more important than ever as our coun-
                             try’s economic health needs our ability to maximize the
 Deputy Inspector General,   taxpayer’s dollar. We are accountable for offering earnest
    Harold W. Geisel         service to the agencies we oversee and for being candid in
                             our findings.
The nature of our job requires that we sometimes bring up issues that are not pleas-
ant. During this reporting period, an inspection of the Department’s Bureau of
Educational and Cultural Affairs found major deficiencies in strategic planning and
oversight that undermined its mission. OIG appreciates the Department’s positive
reaction to our findings.
We are sometimes required to examine issues that draw much attention. At the
request of members of Congress, OIG conducted a special review of the Department’s
handling of the processes for the proposed 1,700-mile pipeline connecting Canadian
oil supplies to the U.S. Gulf Coast. OIG found the Department’s process for selecting
a third-party contractor to have been performed in compliance with its responsibility
to act as an unbiased agency. However, OIG also identified the Department’s need
for more specific experience and technical expertise.
During this reporting period, OIG has testified twice to present our views on
strengthening enforcement of trafficking in persons (TIP) in government contracts.
Our breadth of experience allowed us to provide insights on enforcing TIP compli-
ance and prosecuting TIP violators, and on establishing requirements in future
contracts to make contractors more accountable for TIP compliance.
Whether on paper or in person, OIG’s oversight presence is measured by our
impartiality and our determination to tell people what they sometimes may not
want to hear. As the Department continues to face major security and manage-
ment challenges, we take it upon ourselves to ask hard questions, and to provide



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   1
    good answers. We appreciate the support Congress has shown in providing us the
    resources we need to be effective in fulfilling our demanding mission.




                                        Harold W. Geisel
                                        Deputy Inspector General




2
EXECUTIVE SUMMARY

The auditors, inspectors, investigators, and other professionals in OIG promote effec-
tive management, accountability, and positive change in the Department, BBG, and
the foreign affairs community. During this reporting period, OIG issued 53 reports
with recommendations to improve Department and BBG programs and operations,
and identified nearly $14 million in cost efficiencies, including funds to be put to
better use, questioned costs, fines, and recoveries. A full list of reports issued during
this period can be found in Appendix 2 of each agency section of this report. This
Semiannual Report to the Congress summarizes work carried out by OIG during the
period October 1, 2011, through March 31, 2012. OIG addresses classified issues in
the Classified Annex to the Semiannual Report.



AUDITS
In response to a request received from several members of Congress, OIG conducted
a special review of the Department’s handling of the Environmental Impact
Statement (EIS) and National Interest Determination (NID) for TransCanada
Corporation’s proposed Keystone XL pipeline. OIG found no evidence that
the permit applicant, TransCanada, improperly influenced the Department’s
selection of Cardno Entrix as the Keystone XL EIS third-party contractor. Also,
the Department’s final EIS for Keystone XL generally addressed and incorporated
the views and concerns of Federal agencies that had expertise in this area, but the
Department’s limited technical resources, expertise, and experience had impacted
implementation of the National Environmental Policy Act (NEPA) process. OIG
also determined that the Department did not violate its role as an unbiased oversight
agency and found no evidence that communications between Department officials,
TransCanada, the Canadian Government, and proponents and opponents of
Keystone XL had deviated from the Department’s obligations under Federal law.
OIG recommended that the Department redesign the process for selecting third-
party contractors and fill at least one full-time Civil Service position with staff who
have experience and expertise in handling NEPA issues and the EIS process.
In an audit of the Department’s financial statements, OIG found that financial
management continues to be a major challenge. OIG contracted with an independent
external auditor to audit the financial statements of the Department. Although
the Department took actions to address some internal control deficiencies noted
during the audit of the Department’s 2010 financial statements, the auditor reported
material weaknesses related to financial reporting and Foreign Service national after-
employment benefits, and significant deficiencies related to accounting for property


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   3
    and equipment, accounts payable accruals, budgetary accounting, unliquidated
    obligations, and the information technology control structure.
    In its audits of information security, OIG identified weaknesses that significantly
    impacted the information security program controls. These weaknesses could
    adversely affect the confidentiality, integrity, and availability of information and
    information systems. If these control weaknesses are exploited, the Department could
    be exposed to additional security breaches. As defined in Office of Management
    and Budget Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal
    Information Security Management Act and Agency Privacy Management, dated
    September 14, 2011, these control weaknesses collectively represent a significant
    deficiency to enterprise-wide security, including the Department’s financial system.



    INSPECTIONS
    OIG’s Office of Inspections issued reports on inspections of 2 domestic bureaus,
    12 overseas missions with 7 classified annexes, 1 compliance followup review, and
    5 special reviews. Recommendations in these reports could result in savings or
    funds put to better use of approximately $10 million. The Office of Inspections also
    documented one innovative practice as a model for other embassies to use to promote
    efficiency and effectiveness.
    In an inspection of the Department’s Bureau of Educational and Cultural Affairs
    (ECA), OIG found that the bureau lacked a fully developed strategic planning
    mechanism for its programs, only exacerbated by a growing demand for exchange
    activities and inadequate monitoring and evaluation by grants officer representatives.
    OIG recommended that ECA limit, consolidate, or sunset exchange programs until
    proper oversight can be provided, and that the bureau eliminate or transfer programs
    without relevance to education or culture to the Department of Labor.
    OIG conducted inspections on Department activities in Vienna and issued findings
    in four separate reports. The Inspection of Embassy Vienna, Austria, report noted a
    well-run embassy that had productive relations with the Austrian Government and
    used interagency working groups to achieve mission objectives. OIG recommended
    that Embassy Vienna eliminate four locally employed staff positions and not fill one
    direct-hire and one eligible family member position after the incumbents’ departure.
    In the Inspection of the Tri-Mission Vienna Joint Management Office, OIG found
    that service quality and timeliness met established customer service standards.
    OIG identified shortcomings in space planning and staffing issues, and made
    recommendations to correct them. OIG noted a series of foreign policy successes
    and a cohesive and productive mission team in its Inspection of the U.S. Mission
    to International Organizations in Vienna. Inspectors reported a lack of sufficient
    representation and travel funding. In the Inspection of the U.S. Mission to the



4
Organization for Security and Cooperation in Europe, OIG reported that the mission
had been operating in a decrepit facility, which impeded efficient operations, and
recommended that the Department complete negotiations for its relocation at the
earliest possible date.
OIG’s inspection of Embassy Beirut found that it was performing its core policy
and operational missions well. OIG also identified leadership shortcomings and an
overcrowded and functionally obsolete compound, and made recommendations to
address these problems.
As a result of the Inspection of the American Institute in Taiwan, OIG recommended
the sale of valuable U.S. Government-owned properties in Taiwan and elimination of
some positions. The American Institute in Taiwan was facing the possible loss of up
to $15 million per year in nonimmigrant visa processing fees, if Taiwan is accepted
into the Visa Waiver Program.
OIG’s review of the FY 2012 Diversity Visa Program found that the problems
leading to the program’s failure stemmed from the lack of adherence to sound project
management and systems development principles. OIG recommended establishing
internal controls, designating a directorate with primary responsibility for the Diversity
Visa Program, and developing a plan detailing the program’s operating procedures.
Many of the inspections OIG conducted revealed problems with leadership. These
findings were published in reports on Embassy Beirut, Embassy Nassau, and on the
Bureau of Administration’s Global Publishing Solutions. Leadership issues included
mismanagement of human and financial resources. Of the recommendations
OIG provided, most have been acted upon, although the Department has not
yet implemented its own leadership assessment tool to identify and address such
deficiencies.



INVESTIGATIONS
During this reporting period, OIG conducted numerous investigations spanning
contract fraud, embezzlement, bribery and kickbacks, and nepotism. One
investigation revealed a violation of Federal firearms laws, and two were conducted
with the Special Inspector General for Iraq Reconstruction. The work of OIG’s
Office of Investigations resulted in 7 criminal convictions, $212,520 in monetary
recoveries, and 23 contractor suspension and debarment actions.
In an investigation conducted with several Federal law enforcement agencies of a
major Department contractor, it was determined that a former Deputy Sheriff used
official letterhead to purchase automatic weapons on behalf of the contractor. The
Deputy Sheriff pleaded guilty in U.S. District Court on charges of making false
statements related to records required of a licensed firearms dealer.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   5
    A joint investigation conducted by a contract employee with the Federal Bureau
    of Investigation (FBI) and the Special Inspector General for Iraq Reconstruction
    found that the employee conspired with others to steal a Department-owned truck
    and generator, and arranged for it to be sold on the black market. The subject was
    sentenced to 5 months’ imprisonment and 3 years’ supervised release, and was
    ordered to pay $12,000 in restitution to the Department.
    In another joint investigation with the Special Inspector General for Iraq
    Reconstruction and the Defense Criminal Investigative Service, a program manager
    in Iraq was found to be soliciting kickbacks and bribes from vendors in exchange for
    confidential bidding information and assistance in obtaining Department contracts.
    The subject was sentenced to serve 33 months’ imprisonment, to pay restitution in
    the amount of $106,820, and to also serve 2 years’ supervised release.
    The Inspector General is charged with fraud prevention as well as fraud detection.
    Toward this objective, the Office of Investigations has reinvigorated the Management
    Assistance Report Program. A Management Assistance Report is issued when an
    investigation identifies a systemic weakness that has an impact on Department or
    agency bureaus or offices. It is sent directly to the affected bureau or office with
    recommendations for corrective action. During this reporting period, two such
    reports have been issued recommending corrective action in the areas of ethics
    reporting and acquisition management.



    INTERNATIONAL BROADCASTING
    OIG performed five audits and two inspections on the Broadcasting Board of
    Governors (BBG) operations during this reporting period. Three of the audits
    resulted in OIG recommendations for BBG to strengthen standardized processes and
    compliance.
    In its survey of BBG’s suspension and debarment process, OIG’s findings prompted
    OIG to recommend that BBG strengthen its suspension and debarment policies
    and procedures and that it develop procedures to ensure all pertinent contractor
    performance information is appropriately recorded in databases.
    OIG audited BBG’s compliance with the Improper Payments Information Act and
    recommended that BBG either perform a risk assessment and implement recapture
    audit techniques or better document the determination that these processes are not
    beneficial.




6
DEPARTMENT
     OF
   STATE
8
OFFICE OF AUDITS


SECURITY AND INTELLIGENCE

Special Review of the Keystone XL Pipeline Permit Process (AUD/SI-12-28)
In response to a request received from several members of Congress, OIG conducted
a special review of the Department’s handling of the Environmental Impact
Statement (EIS) and National Interest Determination (NID) for TransCanada
Corporation’s proposed Keystone XL pipeline.
OIG found that the Department followed the Federal Energy Regulatory
Commission’s third-party contracting process and that the final EIS for the pipeline
generally addressed and incorporated the views and concerns of Federal agencies
with expertise in relation to alternatives and mitigation, pipeline safety, and
environmental risks from this project. However, the Department’s limited technical
resources, expertise, and experience were found to have impacted the implementation
of the National Environmental Policy Act (NEPA) process. Regarding contractual
and financial relationships between Cardno Entrix (third-party contractor)
and TransCanada (applicant), OIG did not find a conflict present. Regarding a
Pipeline Hazardous Materials and Safety Administration high-pressure permit, the
Department did not violate its role as an unbiased oversight agency, as there was no
evidence that the Department assured TransCanada it could obtain the permit at
a later date through a less scrutinized and less transparent process. There was also
no evidence that communications between Department officials, TransCanada,
the Canadian Government, or proponents and opponents of Keystone XL deviated
from the Department’s obligations under Federal law. The Department was found to
have complied with the general disclosure requirements applicable to the Presidential
permit and EIS processes, and the Department’s processing and fulfillment of
Freedom of Information Act (FOIA) requests related to Keystone XL did not meet
statutory deadlines but were as timely as, or faster than, its processing and fulfillment
of other FOIA requests of similar complexity.
OIG made three recommendations pertaining to redesigning the process for selecting
and using third-party contractors and to filling at least one full-time Civil Service
position with staff who have experience in handling NEPA issues and the EIS
process.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   9
     Audit of the Department of State Process to Award the Worldwide Protective
     Services Contract and Kabul Embassy Security Force Task Order (AUD/SI-12-17)
     At the request of the Subcommittee on Contracting Oversight, U.S. Senate
     Committee on Homeland Security and Governmental Affairs, OIG conducted an
     audit of the Department’s review of contractor past performance prior to the award
     of the Worldwide Protective Services contract and the Kabul Embassy Security
     Force task order. The audit also was to determine whether the Department reviewed
     information from the Department of Defense or the incidents discussed in a U.S.
     Senate Committee on Armed Services report.
     OIG found that the Department’s process to award the contract and the task order
     included required procedures to assess contractor responsibility, including evaluations
     of past performance and technical merit. Specifically, the Department developed
     and followed plans that were in accordance with applicable Federal and Department
     guidance and the contract solicitation. Also, the Department was not aware of the selected
     contractor’s past performance, as reported by the Senate Armed Services Committee, until
     after the report was publicly released in October 2010, which was after the contract
     and the task order had been awarded. OIG also determined that the Department
     had used the proper systems to obtain the contractor’s information regarding its past
     performance on Federal contracts and that the information did not include the negative
     performance issues identified in the Senate Armed Services Committee’s report.
     The report contained no recommendations.



     INFORMATION TECHNOLOGY

     Evaluation of the Department of State Information Security Program
     (AUD/IT-12-14)
     An independent public accountant reviewed the Department’s Information
     Security Program to evaluate the Department’s progress in addressing information
     management and information security program requirements related to the Federal
     Information Security Management Act of 2002 (FISMA).

     The public accountant found that the Department, since the FY 2010 review, had
     (1) improved management controls by updating and verifying the FISMA systems
     inventory list to the Information Technology Asset Baseline to ensure that all
     information technology (IT) systems are accurately accounted for, (2) defined and
     identified personnel with significant security responsibilities in the Department’s
     Information Assurance Training Plan, (3) ensured that personally identifiable
     information data incidents were reported to the U.S. Computer Emergency Response
     Team within the required 1-hour timeframe, and (4) updated its contracts to include
     Department of State Acquisition Regulations information security language.

10
The public accountant made recommendations for the Department to address control
weaknesses in the risk management program, security configuration management,
security awareness and role-based training, plans of action and milestones, account
and identity management program, user provisioning process, continuous monitoring
program, the continuity of operations plan, information security contingency
planning, oversight of contractor systems, and capital planning.


Evaluation of the United States Section, International Boundary and Water
Commission, Information Security Program (AUD/IT-12-16)
In response to FISMA, OIG conducted an evaluation of the United States Section,
International Boundary and Water Commission’s (IBWC) Information Security
Program to evaluate IBWC’s progress in addressing FISMA information management
and information security program requirements.

Overall, IBWC continued its efforts to further develop its information security
program. However, IBWC needed to improve and bring the program into
compliance with applicable requirements.

OIG made recommendations for IBWC to address control weaknesses in the system
inventory, risk management program, configuration management, security training,
plan of action and milestones, remote access, continuous monitoring, contingency
planning, oversight of contractor system, security capital planning, personnel
security, and physical and environmental protection.




MIDDLE EAST OPERATIONS

Evaluation of Emergency Action Plans for Embassy Baghdad and Consulates
General Basrah and Erbil (AUD/MERO/12-18)
OIG conducted an audit to determine whether existing or definable resources at
Embassy Baghdad and Consulates General Basrah and Erbil were available and
adequate to respond to emergency situations such as bombs, fires, civil disorders, and
evacuations.
OIG determined that the Embassy Baghdad emergency action plan (EAP) was
prepared in compliance with regulations, that embassy officials had identified the
resources required to implement the EAP, and that embassy staff were adequately
trained in the EAP procedures.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   11
     FINANCIAL MANAGEMENT

     Independent Accountant’s Report on the Application of Agreed-Upon Procedures:
     Employee Benefits, Withholdings, Contributions, and Supplemental Semiannual
     Headcount Reporting Submitted to the Office of Personnel Management
     (AUD/FM-12-01)
     Under OIG’s direction, an independent external auditor performed agreed-upon
     procedures as required by the Office of Management and Budget to assist the Office
     of Personnel Management (OPM) in assessing the reasonableness of employee benefits,
     withholdings and contributions, and semiannual headcount information submitted by
     the Department and to assist in identifying and correcting errors relating to processing
     and distributing Combined Federal Campaign payroll deductions.
     The auditor identified a difference between the amounts of retirement withholdings
     reported to OPM and the Department’s payroll information. Two instances were reported
     in which the life insurance elections in the payroll system did not agree with election
     forms in employees’ official personnel files. Two instances were reported in which the
     amount of withholdings for optional life insurance calculated by the auditor did not
     match the amount withheld. Finally, differences were noted between the total headcount
     in the Semiannual Headcount Report and in the Department’s payroll information.
     The Department provided explanations for the headcount differences.

     Independent Auditor’s Report on the U.S. Department of State 2011 and 2010
     Special-Purpose Financial Statements (AUD/FM-12-04)
     An independent external auditor performed an audit of the Department’s reclassified
     balance sheets as of September 30, 2011 and 2010, and the related reclassified
     statements of net cost and changes in net position for the years then ended (special-
     purpose financial statements).
     The auditor identified potentially material amounts relating to after-employment
     benefits provided to locally employed overseas staff that had not been previously
     reported in the Department’s special-purpose financial statements. The Department
     was unable to provide timely and complete evidential matter to enable the auditor
     to perform audit procedures to satisfy itself that actuarial liabilities and benefit plan
     assets relating to after-employment benefit programs, and their related effect on
     net position, were free of material misstatements. This impacted both FY 2011 and
     FY 2010 balances and activity. As a result of these limitations, the auditor’s present
     opinion on the Department’s FY 2010 special-purpose balance sheet and related
     statement of changes in net position is different from that expressed in its previous
     report, and the previous opinion should not be relied upon.
     Except for the effects of such adjustments, if any, as might have been determined to be
     necessary had the auditor been able to examine evidence related to after-employment

12
benefits provided to locally employed overseas staff, the auditor found the special-
purpose financial statements and accompanying notes present fairly, in all material
respects, the financial position of the Department as of September 30, 2011 and 2010,
and its net cost of operations and changes in net position for the years then ended,
in conformity with accounting principles generally accepted in the United States of
America and the presentation pursuant to Department of the Treasury requirements.
The auditor identified no material weaknesses in internal control over the financial
reporting process for the special-purpose financial statements, and its tests of
compliance with Treasury requirements disclosed no instances of noncompliance that
were required to be reported.

Independent Auditor’s Report on the U.S. Department of State 2011 and 2010
Financial Statements (AUD/FM-12-05)
An independent external auditor performed an audit of the Department’s annual
financial statements as of, and for the years ended, September 30, 2011 and 2010.
The auditor identified potentially material amounts relating to after-employment
benefits provided to locally employed overseas staff that had not been reported in
previous Department financial statements. The Department was unable to provide
timely and complete evidential matter to enable the auditor to perform audit
procedures to satisfy itself that actuarial liabilities and benefit plan assets relating
to after-employment benefit programs, and their related effect on net position,
were free of material misstatements. As a result of these limitations, the auditor’s
present opinion on the Department’s FY 2010 consolidated balance sheet and related
statement of changes in net position is different from that expressed in its previous
report, and the previous opinion should not be relied upon.
Except for the effects of such adjustments, if any, as might have been determined
to be necessary had the auditor been able to examine evidence related to after-
employment benefits provided to locally employed overseas staff, the auditor found
that the annual financial statements present fairly, in all material respects, the
financial position of the Department as of September 30, 2011 and 2010, and its net
cost of operations, changes in net position, and changes in budgetary resources for
the years then ended, in conformity with accounting principles generally accepted in
the United States of America.
The auditor found certain deficiencies in internal control that it considered to be
significant–specifically, material weaknesses relating to financial reporting and Foreign
Service national after-employment benefits and significant deficiencies in the internal
control over property and equipment, budgetary accounting, unliquidated obligations,
the accrual process, and information technology. The auditor also found instances of
noncompliance with certain provisions of laws and regulations, including instances in
which the Department’s financial management systems did not substantially comply
with the requirements of the Federal Financial Management Improvement Act.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   13
     Management Letter Related to the Audit of the U.S. Department of State
     FY 2011 Financial Statements (AUD/FM-12-06)
     During the audit of the Department’s FY 2011 financial statements, the
     independent external auditor identified matters involving internal controls
     that it brought to the Department’s attention. These matters were related to
     documentation, funds with the Department of the Treasury, other assets, accounts
     payable, acquisition and vendor payment, payroll, property, revenue, accounts
     receivable, budgetary resources, financial reporting, and Foreign Service national
     after-employment benefits.
     The external auditor recommended that the Department take appropriate action to
     address these weaknesses.

     Independent Review of the U.S. Department of State Accounting of FY 2011
     Drug Control Funds and Related Performance Report (AUD/FM-12-19)
     OIG independently reviewed the assertions made in the Department’s accounting of
     FY 2011 drug control funds and related performance report, which was submitted to
     the Director of the Office of National Drug Control Policy (ONDCP) in compliance
     with ONDCP guidance. Based on OIG’s review, nothing came to OIG’s attention
     that caused it to believe that the management assertions included in the report were
     not fairly stated, in all material respects, based upon the guidance.

     Audit of Department of State Compliance With the Improper Payments
     Information Act (AUD/FM-12-31)
     In compliance with the Improper Payments Elimination and Recovery Act of 2010
     (IPERA), an external audit firm acting on OIG’s behalf audited the Department’s
     compliance with the Improper Payments Information Act of 2002 (IPIA), as
     amended by IPERA.
     The auditor found that the Department had taken steps to comply with IPIA.
     However, the Department’s improper payments risk assessment methodology was
     insufficient, recapture audit activities were not performed for all types of improper
     payments or all payments, and some required improper payments disclosures were
     omitted from the Department’s Agency Financial Report (AFR) or were inaccurate.
     OIG recommended that the Department develop policies and standardized
     procedures for performing improper payments risk assessments and recapture
     audit activities and for reporting information relating to improper payments in the
     Department’s AFR.




14
HUMAN CAPITAL AND INFRASTRUCTURE

Audit of Department of State Drug-Free Workplace Program Plan (AUD/HCI-12-30)
OIG conducted an audit to determine to what extent the Department’s drug testing
program met applicable Federal statutes, regulations, and guidance and to determine
whether the Department was drug testing its employees in accordance with Drug-
Free Workplace Program Plan requirements.
OIG found that the plan met Federal statutory and regulatory requirements for drug
testing but that it did not include testing at overseas posts, even though 40 percent of the
Department’s employees in sensitive positions that are subject to drug testing are located
overseas. Also, the Department was not conducting testing in accordance with its plan.
OIG made recommendations for the Department to strengthen its drug testing program.



INTERNATIONAL PROGRAMS

Audit of Bureau of East Asian and Pacific Affairs Compliance With Trafficking
in Persons Requirements (AUD/IP-12-02)
To fulfill its responsibilities under the William Wilberforce Trafficking Victims
Protection Reauthorization Act of 2008, OIG contracted with an independent public
accountant to investigate a sample of contracts in the Asia-Pacific region with a
heightened risk of trafficking in persons (TIP).
The public accountant found that Department employees in the Bureau of East
Asian and Pacific Affairs and the Asia-Pacific region were not uniformly aware of
what constitutes TIP activity, penalties for TIP violations, where to report allegations
of violations, and that the TIP policy applies to Department contractors. Also,
because contractors were not always aware of their obligations, they did not always
comply with their contractual obligations.
The public accountant made recommendations for the Department to implement a
separate policy on TIP in Departmental regulations, expand the Department’s code
of conduct to prohibit TIP activities, establish an office responsible for employees
to report instances of TIP, and expand TIP training to all Department employees.

Improved Contract Documentation and Monitoring by the Regional Procurement
Support Office Are Needed for Construction Projects Associated With the
President’s Emergency Plan for AIDS Relief (PEPFAR) (AUD/IP-12-03)
OIG conducted this review to determine whether the Regional Procurement Support
Office (RPSO) in Frankfurt, Germany, appropriately awarded and monitored
construction contracts associated with PEPFAR.

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   15
     OIG determined that RPSO did not comply with Department requirements or
     Federal acquisition requirements for maintaining contract files to demonstrate
     performance of required actions in awarding and monitoring PEPFAR construction
     contracts. RPSO also inappropriately included contingency costs in these contracts
     and task orders totaling $2,126,148. In addition, at two of the three posts visited,
     contract monitoring files did not always contain adequate documentation showing
     required monitoring actions, thereby preventing the Department from being assured
     that these actions were always performed, that buildings were properly constructed,
     and that payments made to contractors were for work actually completed.
     OIG made five recommendations for RPSO to monitor construction, review files,
     eliminate new contingency fees, and reclaim appropriate past contingency fees.



     CONTRACTS AND GRANTS

     Audit of International Boundary and Water Commission Construction
     Contract With Inuit Services, Incorporated, Using Funds Provided by the
     American Recovery and Reinvestment Act (AUD/CG-12-10)
     An independent public accountant audited the International Boundary and Water
     Commission’s contract with Inuit Services, Incorporated, using funding provided by
     the American Recovery and Reinvestment Act (Recovery Act).
     The public accountant found that Inuit did not comply with all relevant Federal laws
     and regulations, including regulations of the Recovery Act; did not obtain required
     certifications from its subcontractors; did not have effective controls in place to ensure that
     its subcontractors were paid in a timely manner; did not comply with requirements for
     ensuring construction materials were in accordance with the Buy American Act; and did not
     submit correct and complete reports for its subcontractor onto the applicable Web site.
     The public accountant made recommendations for Inuit to establish procedures to
     comply with applicable laws, regulations, and reporting requirements.

     Audit of International Boundary and Water Commission Construction
     Contract With Sun Belt Builders, Inc., Using Funds Provided by the American
     Recovery and Reinvestment Act (AUD/CG-12-11)
     In its audit of the International Boundary and Water Commission’s contract
     with Sun Belt Builders, Inc., using funding provided by the Recovery Act, the
     independent public accountant found that Sun Belt did not comply with all relevant
     Federal laws and regulations, including those of the Recovery Act; did not obtain
     required certifications from its subcontractors; did not have effective controls in place
     to ensure that its subcontractors were paid in a timely manner; did not comply with
     requirements for ensuring construction materials were in accordance with the Buy

16
American Act; and did not submit correct and complete reports for its subcontractor
onto the applicable Web site.
The independent public accountant made recommendations for Sun Belt to establish
procedures to comply with applicable laws, regulations, and reporting requirements.

Audit of Funding Provided by the American Recovery and Reinvestment Act for
the Foreign Affairs Security Training Center (AUD/CG-12-13)
In its audit of funding provided by the Recovery Act for the Foreign Affairs Security
Training Center (FASTC), the independent public accountant found that the
Department generally managed Recovery Act funds effectively to meet program
goals and requirements for FASTC.
However, the Bureau of Administration (A Bureau) did not ensure that pre-award
and post-award contract notices were posted as required, that documentation to
support evaluation and selection efforts for contract actions funded by the Recovery
Act were maintained, that all subcontractors were approved before they worked on
the FASTC project task order, and that $23,127 paid for unallowable costs under the
contract was reimbursed to the Department.
The public accountant made recommendations for the A Bureau to enhance its
contract oversight efforts to prevent recurrences of these conditions and to obtain
reimbursement for the $23,127 of unallowable costs.

Audit of Norwegian People’s Aid Under Department of State and U.S. Agency
for International Development Multiple Agreements for Year Ended
December 31, 2009 (AUD/CG-12-20)
The audit was carried out by an independent public accountant at the request of the
U.S. Agency for International Development (USAID) and included the audit of eight
Department grants, totaling $5,206,780. The grants were awarded by the Bureau of
Political-Military Affairs, Office of Weapons Removal and Abatement (PM/WRA),
to the Norwegian People’s Aid for land mine removal; development of programs that
allow free movement and settlement of populations; and improvement of physical
infrastructure and access to roads, bridges, and schools.
Based on information provided by the public accountant, OIG questioned costs of
$77,819 and identified internal control weaknesses and other noncompliance with
the terms of the grant agreements and applicable laws and regulations that require the
grantee’s corrective action.
OIG recommended that PM/WRA issue a final determination on the allowability of
the questioned costs.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   17
     Audit of Contracting Officers Exceeding Delegated Procurement Authority
     (AUD/CG-12-26)
     An independent public accountant conducted an audit to quantify and determine
     the extent to which domestic-based contracting officers (CO) were exceeding
     their delegated procurement authority. The public accountant also identified the
     amount of obligations related to Department contract actions (excluding grants and
     cooperative agreements) that exceeded the delegated procurement authorities of the
     COs and therefore represented unauthorized non-binding agreements.
     The public accountant found that the impact of unauthorized commitments
     generated by domestic COs exceeding their warrant authority was minor but that
     21 domestic contract actions were not properly ratified and certain controls related
     to the prevention and monitoring of unauthorized commitments and warranted
     authority needed to be strengthened. The public accountant also identified a need
     to strengthen controls to clearly identify Global Financial Management System user
     roles and privileges for contract specialists.
     The public accountant made recommendation for offices within the Bureau of
     Administration to improve internal controls within the current control system and
     improve processes related to domestic contract actions.

     Review of Best-Value Contracting for the Department of State Local Guard
     Program and the Utility of Expanding the Policy Beyond High-Threat Posts in
     Iraq, Afghanistan, and Pakistan (AUD/CG-12-27)
     As requested by the Senate Committee on Foreign Relations, OIG examined the
     best-value contract award method and its possible application to local guard contracts
     worldwide.
     OIG determined that best-value contracting for local guard services would generally
     be more expensive than lowest-price contracting. However, Department headquarters
     officials noted that the Department’s programmatic oversight costs for best-value
     awards could be lower than costs for lowest-price awards because competition would
     likely increase and awards would be made to better qualified vendors. OIG also
     found that at some overseas posts where local guard contracts had been awarded
     under the current lowest-price award method, the posts experienced contract
     performance problems and an increased need for Department oversight. Finally, OIG
     found that the legally required 10 percent price preference given to U.S. companies
     for local guard contracts has not been a factor in recent local guard contract
     competitions and may no longer be needed.
     OIG offered two matters for the Senate Committee on Foreign Relations to consider
     regarding contracting for local guard services.




18
OFFICE OF INSPECTIONS

DOMESTIC INSPECTIONS

Inspection of the Bureau of Educational and Cultural Affairs (ISP-I-12-15)
OIG conducted an inspection of the Department’s Bureau of Educational and
Cultural Affairs (ECA), which manages exchange programs to enhance mutual
understanding and facilitate the advancement of foreign policy priorities.
As a result of its inspection, OIG found that long-standing institutional weaknesses
have undermined ECA’s effectiveness. Significant increases in annual exchange
visitor visa issuance have left ECA struggling to oversee the more than 1,200 sponsor
organizations responsible for ensuring positive cultural exchange experiences for
participants, many of whom are youth. Public criticism of the Summer Work Travel
Program is the most recent negative consequence of unfettered growth and weak
regulation of privately funded exchanges. Additionally, grants officer representatives
did not perform their monitoring and evaluation responsibilities adequately, creating
vulnerabilities in program implementation and oversight of funds. ECA had more
than 100 outstanding grants awaiting closeout; once that step has been completed,
the bureau will be able to deobligate an estimated $4 million. ECA was also found to
lack fully developed strategic planning mechanisms for its programs.
The OIG team recommended that ECA strictly limit the Summer Work Travel
Program until it can provide proper oversight. OIG also recommended that ECA
determine the viability of ending or transferring to the Department of Labor
its current responsibilities for the work programs having little to do with either
education or culture.

Inspection of the Bureau of Administration, Global Information Services,
Global Publishing Solutions (ISP-I-12-07)
The Bureau of Administration, Global Information Services, Global Publishing
Solutions (A/GIS/GPS) office provides the Department with fee-for-service printing,
publishing, and domestic copier management services, which are financed using the
Department’s working capital fund.
The OIG inspection revealed significant managerial issues in A/GIS/GPS. The Bureau
of Administration officials cited Office of Management and Budget Circular A-76
controls, which were established by a letter of obligation (the equivalent of a contract
between the Department and the A/GIS/GPS) as the source of the office’s managerial


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   19
     issues and main obstacle to improving operations. However, the letter of obligation was
     terminated in March 2011, releasing A/GIS/GPS from those controls. At the time of
     the inspection, A/GIS/GPS still had not resolved its management issues and continued
     to use pricing that was not designed to cover all or more of its operating costs.
     The OIG team recommended that the Bureau of Administration prepare a strategic
     plan for A/GIS/GPS to identify and prioritize short- and long-term fixes as well as align
     human and financial resources to address its managerial issues. The OIG team also
     recommended that A/GIS/GPS implement an aggressive strategy to reduce its financial
     losses that are being absorbed by other profitable working capital fund cost centers.



     OVERSEAS MISSIONS

     Bureau of Near Eastern Affairs

     Inspection of Embassy Beirut, Lebanon (ISP-I-12-10A)
     OIG conducted an inspection of Embassy Beirut and found that the embassy was
     performing its core policy and operational missions well, was providing a wide
     Washington readership with timely and insightful analysis, and was successful in
     recalibrating U.S. foreign assistance programs to strengthen Lebanese civil society
     and institutions. However, its substantive strengths were being undercut by front
     office leadership shortcomings. Furthermore, nearly 3 decades after the bombing
     of the U.S. Embassy in 1983, the embassy was still occupying an overcrowded and
     functionally obsolete compound that did not meet security standards.
     The OIG team recommended that the Department send a team to Beirut to evaluate
     progress on leadership issues and that the embassy establish a formal mentoring and
     professional development program for entry-level officers and specialists.

     Inspection of Embassy Algiers, Algeria (ISP-I-12-06A)
     OIG conducted an inspection of Embassy Algiers and found deficiencies in the areas
     of management and operations. The management section was providing inadequate
     services to its customers, with lax management procedures, opaque processes, perceptions
     of undue influence and preferential treatment in hiring, and poor communication
     contributing to customer dissatisfaction in this area. Management controls were also weak
     due to lack of standard operating procedures and insufficient collaboration among units,
     particularly in supply chain management. The new Ambassador and deputy chief of
     mission were vigorously addressing these shortcomings.
     The OIG team made recommendations to improve services and strengthen
     management controls. However, the Department’s inability to fill key mid-level


20
positions with appropriately trained and experienced personnel contributed to the
diminished operational effectiveness noted in most sections.


                 INNOVATIVE PRACTICE: New Resident Orientation

                 Issue: Many recipients of immigrant visas, particularly diversity visas, have
                 never traveled outside Algeria and do not know what to expect when they
                 arrive in the United States for the first time.
                 Response: The consular section in Algiers offers immigrant visa and diversity
                 visa recipients the opportunity to pick up their visa packets in person on one
                 of two orientation days each month. The sessions are strictly voluntary; those
                 who choose not to attend receive their packets by courier. The sessions use a
                 PowerPoint presentation based on the U.S. Citizenship and Immigration Services
                 pamphlet, Welcome to the United States, to cover details such as what to expect at
                 the airport, resources available in the United States, and cultural norms.
                 Result: The program has been well received by the local population.
                 Approximately 20 to 30 people attend each session.




Bureau of East Asian and Pacific Affairs

Inspection of Embassy Hanoi and Consulate General Ho Chi Minh City,
Vietnam (ISP-I-12-11A)
OIG conducted an inspection of Embassy Hanoi, which had undergone a major
turnover in personnel shortly before the inspection. The team found that the new
Ambassador demonstrated leadership and interpersonal engagement; operations ran
smoothly; and morale was high, despite the inadequate, insecure, and ramshackle
condition of the chancery due to prolonged U.S.-Vietnam discussions about a new
embassy compound. The inspection team also noted a need for improvement in
communication between the embassy and its sole constituent post, the large and
influential Consulate General Ho Chi Minh City (formerly Saigon); deficiencies in
management controls at both posts; and weak enforcement of the worldwide referral
policy for nonimmigrant visas at Consulate General Ho Chi Minh City.
The OIG team recommended that Embassy Hanoi make securing a long-term title
to property in Hanoi for a new embassy compound a top mission goal; increase and
formalize regular staff interaction and communication with Consulate General Ho
Chi Minh City; review management control procedures at both Embassy Hanoi and
Consulate General Ho Chi Minh City; and implement more strict enforcement of
the worldwide referral policy for nonimmigrant visas at Consulate General Ho Chi
Minh City.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012     21
     Inspection of the American Institute in Taiwan (ISP-I-12-12A)
     OIG conducted an inspection of the American Institute in Taiwan, which is unique
     in the Department. A private, nonprofit organization, the American Institute
     in Taiwan is supported by appropriated Department funds, nonimmigrant visa
     processing fees, and funds from other agencies, allowing it to operate with more
     freedom and fewer financial restrictions than embassies have. However, this situation
     also complicates its coordination with Washington, as the lines of authority and
     communication are often unclear.
     As a result of the inspection, OIG found that the American Institute in Taiwan
     was functioning well overall but that individual sections often worked in isolation
     and in some cases were overstaffed. The American Institute in Taiwan also faced
     potential loss of as much as $15 million per year in visa processing fee funds, and a
     commensurate reduction in consular staff, should Taiwan be accepted into the Visa
     Waiver Program. This prospect was affecting the morale of those employees whose
     jobs could be in jeopardy.
     The OIG team recommended the elimination of some positions as well as the sale of
     several valuable U.S. Government-owned properties in Taiwan, including the Taipei
     Economic and Cultural Relations Office property, valued at between $2.8 million
     and $16 million; the Japanese Guesthouse, with a local appraised value of $2.6
     million; and the Summer House, locally appraised at $1 million.


     Bureau of Western Hemisphere Affairs

     Inspection of Embassy Caracas, Venezuela (ISP-I-12-09A)
     OIG conducted an inspection of Embassy Caracas and found deficiencies in the areas
     of management support and leadership, morale, bandwidth capabilities, diplomatic
     mail operations, and consular leadership.
     Lengthy staffing gaps in the front office had undermined mission oversight and
     contributed to management deficiencies and poor morale. Prolonged staffing shortages in
     key management positions, weak section leadership, and lack of a customer service focus
     combined to produce significant deficiencies in support. The consular section was also
     emerging from a lengthy period of ineffective leadership, which had public diplomacy,
     security, commercial, and management ramifications. The arrival of a new consul general
     and deputy visa chief provided an opportunity to end past mismanagement.
     The OIG team made recommendations to address these shortcomings.

     Inspection of Embassy Nassau, The Bahamas (ISP-I-12-08A)
     OIG conducted an inspection of Embassy Nassau and found a mission recover-
     ing from an extended period of dysfunctional leadership and management that had

22
adversely affected missionwide operations and morale. The Ambassador’s authorized
absences from post contributed to poor mission management. The embassy and the
Bureau of Western Hemisphere Affairs did not follow Department procedures for
vetting these absences.
Following counseling from the OIG team, the Ambassador and new deputy chief
of mission were united in addressing the lingering effects of poor morale, especially
among employees at post for more than 1 year. In addition, the deputy chief of
mission and management officer were working to improve internal coordination
among management sections and provide better services to employees, including
those stationed at Freeport, Grand Bahama Island. The OIG team also recom-
mended that the Bureau of Human Resources update the Foreign Affairs Manual
and the Foreign Affairs Handbook to clarify the process for approving chief of mission
absences from post. Following the inspection, the Ambassador resigned her position
and departed post on November 21, 2011.

  Leadership Shortcomings
  OIG continued to find problems with leadership at missions and during domestic
  inspections. In its inspection of Embassy Beirut, OIG found front office leadership
  shortcomings that inhibited efficient operations. At Embassy Nassau, leadership
  and mismanagement problems were caused, in part, by the Ambassador’s preference
  to work from her residence and her extensive travel out of country, which exceeded
  Department standards and was improperly vetted domestically. During its inspec-
  tion of the Bureau of Administration’s Global Publishing Solutions, OIG found the
  director was not able to resolve longstanding management issues that, in part, have
  resulted in net operating losses of about $2 million a year, with a projected loss of
  $1.2 million in FY 2012. Most of OIG’s mission-specific leadership recommenda-
  tions have been acted upon; however, the Department has not yet implemented its
  own leadership assessment tool to identify and address leadership deficiencies.



Bureau of European and Eurasian Affairs

Inspection of Embassy Vienna, Austria (ISP-I-12-16A)
OIG conducted an inspection of Embassy Vienna, which had productive relations
with the Austrian Government and significantly advanced the U.S. policy agenda.
The OIG team found that political and economic reporting and analysis were meet-
ing the needs and serving the interests of U.S. officials in formulating policy deci-
sions. The inspection team also found that interagency working groups were linked
to Mission Strategic and Resource Plan objectives, and interagency cooperation was
strong in commercial promotion, political-military issues, and, most notably, law


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   23
     enforcement. The inspection team noted that most of the embassy sections were well
     run but many were overstaffed and a few were understaffed.
     The OIG team made recommendations to correct the embassy’s staffing issues.

     Inspection of the Tri-Mission Vienna Joint Management Office (ISP-I-12-19A)
     OIG conducted an inspection of the Tri-Mission Vienna Joint Management Office
     (JMO), which provides management services to Embassy Vienna, the U.S. Mission
     to International Organizations in Vienna, and the U.S. Mission to the Organization
     for Security and Cooperation in Europe (USOSCE).
     Although service quality and timeliness met established customer service standards,
     the OIG team found that customers were dissatisfied with JMO and perceived ineq-
     uitable service provision. The OIG team found shortcomings in JMO’s space plan-
     ning; for example, JMO allocated 1,200 square feet for USOSCE’s communications
     center in a new building based on the space allotted in its current location, which is
     largely unused. The OIG team identified several staffing issues and found that the
     American employees’ association does not use an appropriate accounting system, has
     virtually no internal controls, and is in dire financial condition.
     The OIG inspectors made recommendations to address JMO management and
     operations, reevaluate spacing needs, and correct deficiencies associated with the
     American employees’ association. The inspectors also made recommendations to
     correct staffing issues.

     Compliance Follow-up Review of Embassy Copenhagen, Denmark (ISP-C-12-20)
     After the 2010 inspection of Embassy Copenhagen, the Ambassador requested
     that OIG conduct a compliance follow-up review (CFR) of the embassy, given the
     turnover in embassy staff just before the inspection.
     The CFR revealed that the mission had complied with many of the formal and
     informal recommendations from the 2011 inspection report, which included recom-
     mendations intended to strengthen mission management and leadership. However,
     the CFR team found that the Ambassador continued with the same flat approach
     to management that created accountability and communication issues within the
     sections. The CFR team also found gaps in the mission’s strategic planning, specifi-
     cally its strategy for defining U.S. interests and engagement in Greenland and maxi-
     mizing the Ambassador’s media presence. The CFR team identified questionable
     practices and possible vulnerabilities associated with the embassy restaurant’s unique
     after-hours programs.
     The CFR team recommended that the embassy implement a system to counteract the
     accountability and communication issues and address gaps in its strategic planning.
     The team also recommended that the embassy seek guidance from the Department


24
to address the security, legal, and management ramifications of embassy restaurant
commercial activities.



INTERNATIONAL ORGANIZATIONS

Inspection of the U.S. Mission to International Organizations in Vienna
(ISP-I-12-17A)
OIG conducted an inspection of the U.S. Mission to International Organizations in
Vienna (UNVIE), which merits commendation for a series of foreign policy successes
that advanced high-priority objectives, ranging from nuclear nonproliferation and
promoting safe uses of nuclear energy to arms control and countering corruption.
The OIG team found that the Ambassador and deputy chief of mission had built
a cohesive, productive, high-morale team, drawn from many agencies, but that the
career development program for first- and second-tour officers and specialists needed
attention. The inspection team also noted that the mission’s representation and travel
funding was insufficient to advance U.S. objectives effectively in the eight interna-
tional organizations in Vienna at which the mission represents the United States.
The OIG team recommended that UNVIE develop a more defined career devel-
opment program for first- and second-tour officers and specialists and informally
recommended that UNVIE provide justification to the Department for increased
representation and travel funds.

Inspection of the U.S. Mission to the Organization for Security and Cooperation
in Europe (ISP-I-12-18A)
OIG conducted an inspection of the U.S. Mission to the Organization for Security and
Cooperation in Europe (USOSCE), which was advancing U.S. objectives in an increas-
ingly challenging climate where there is a growing divergence between Europe and
Eurasia’s democratic West and an increasingly authoritarian East. USOSCE was also
excelling in its planning and tactics to promote U.S. interests in, and facilitation of the
work of, the Organization for Security and Cooperation in Europe (OSCE). The OIG
team found that the mission led the OSCE’s efforts to maximize the participation of
civil society and nongovernmental organizations in meetings and conferences. Including
these entities advances U.S. interests in holding participating states accountable for their
actions, reflects modern international realities, and enhances the relevance of the OSCE.
The OIG team found that USOSCE had operated for decades in a decrepit facility
that impedes efficient operations. The OIG team recommended that the Department
complete negotiations for the mission to relocate at the earliest possible date.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   25
     PROGRAM REVIEWS AND SPECIAL REPORTS

     Review of the FY 2012 Diversity Visa Program Selection Process (ISP-I-12-01)
     Errors in the participant selection and notification process of the FY 2012 Diversity
     Visa (DV) Program led the Bureau of Consular Affairs to conclude that the program
     had not been conducted in compliance with the laws and regulations that govern the
     program. As a result, the bureau nullified the visa lottery results and reran the lottery.
     This decision sparked anger among participants selected in the first lottery and
     resulted in a lawsuit against the Department, which the U.S. District Court for the
     District of Columbia dismissed on July 14, 2011. In response to these events, OIG
     conducted a limited-scope review of the FY 2012 DV program.
     The OIG team identified three primary factors that led to the FY 2012 program fail-
     ure, all of which stemmed from lack of adherence to sound project management and
     systems development principles.
     The OIG team’s recommendations to address these deficiencies focused on the
     establishment of internal controls for the development and implementation of DV
     computer programs, the designation of a directorate with primary responsibility for
     the DV program, and the development of a plan for implementing the FY 2013 DV
     program that details the procedure and those responsible for each function, from the
     opening of the application period through visa issuance.

     Improvements Needed in Information Technology Contingency Planning
     (ISP-I-12-04)
     OIG conducted a review of 50 inspected posts’ and bureaus’ IT contingency plan-
     ning to determine whether they could operate effectively after a catastrophic event.
     The OIG team discovered that a majority of the inspected bureaus and posts had not
     developed, tested, or updated IT contingency plans. The OIG team also identified
     inconsistencies in the posts’ and bureaus’ compliance with Department contingency
     planning guidance.
     The OIG team recommended that the Bureau of Information Resource Management
     track bureau and post compliance with IT contingency planning requirements,
     incorporate contingency planning into Department-wide IT risk scoring methodol-
     ogy, and include adherence to contingency planning requirements in performance
     appraisals of responsible personnel.




26
OFFICE OF INVESTIGATIONS

CONTRACT FRAUD
OIG conducted an investigation with several Federal law enforcement agencies—
including the Bureau of Alcohol, Tobacco, and Firearms—of a major Department of
State security contractor for weapons and contract violations. The investigation deter-
mined that a former Deputy Sheriff used the official letterhead of his office to purchase
automatic weapons on behalf of the contractor in violation of Federal firearms laws. On
November 15, 2011, the former Deputy Sheriff pleaded guilty in U.S. District Court on
charges of making false statements related to records required of a licensed firearms dealer.
Sentencing of the subject was pending at the end of the reporting period. (C2007-018)



EMBEZZLEMENT
OIG conducted a joint investigation with the FBI and the Special Inspector General
for Iraq Reconstruction of a contract employee for conspiring to steal Department
equipment related to his work in Baghdad, Iraq. The investigation determined that the
contract employee agreed with other co-conspirators to steal a truck and a generator
and arranged for them to be sold in the black market. When interviewed, the subject
admitted to participating in this scheme to defraud the government. On November 10,
2011, the subject pleaded guilty to a criminal information charging him with conspiracy
to commit theft of government property. On February 21, 2012, the subject was
sentenced to five months’ imprisonment and three years’ supervised release. In addition,
the subject was ordered to pay $12,000 in restitution to the Department. (C2009-097)



BRIBERY AND KICKBACKS
OIG conducted a joint investigation with the Special Inspector General for Iraq
Reconstruction and the Defense Criminal Investigative Service of a Provincial
Program Manager in Iraq who solicited kickbacks and bribes from vendors in
exchange for providing confidential bidding information and assisting Iraqi contrac-
tors in obtaining Department contracts. On January 20, 2011, the subject was
indicted on one count of conspiracy to commit wire fraud and one count of wire
fraud. On January 19, 2012, the subject was sentenced on both counts and sentenced
to serve 33 months imprisonment, pay restitution in the amount of $106,820, and
also serve two years’ supervised release. (C2009-063)


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   27
     OIG conducted an investigation based upon a referral from the FBI alleging that a
     Locally Employed Staff member working at Embassy Kabul as a Procurement Supervisor
     solicited a kickback. The investigation uncovered a large number of irregularities in the
     procurement process related to the Procurement Supervisor. On November 17, 2011, the
     Department’s Office of the Procurement Executive issued contractor suspensions to 17
     firms that had suspicious interactions with the Procurement Supervisor. (C2011-023)



     NEPOTISM
     OIG conducted an investigation into allegations that a Foreign Service officer stationed
     overseas drafted a performance award for his spouse and submitted it to a subordinate to
     sign as the nominator. The investigation confirmed the validity of the allegations and also
     determined that another Foreign Service officer who served as the chairman of the post
     awards committee approved the award despite being aware of the nepotism, and also failed
     to comply with the anti-nepotism provisions of the Foreign Affairs Handbook in allowing
     the spouse to be supervised by an employee who reported directly to her husband. On
     November 9, 2011, the Bureau of Human Resources issued a proposed 25-day suspension
     for the first subject and a 10-day suspension for the second subject. (C2010-024)



     FOLLOW-UP ACTIONS

     Visa Fraud
     OIG conducted an investigation based upon information provided by the U.S.
     Immigration and Customs Enforcement (ICE), Document and Benefit Fraud Task
     Force, that was worked jointly with ICE and the Bureau of Diplomatic Security. ICE
     determined that two individuals purchased their naturalization certificates from a
     corrupt Department of Homeland Security government employee. One individual
     was a Department contractor who conducted training for the Department, while the
     other was a related party. On August 19, 2011, both subjects pleaded guilty in the
     Eastern District of Virginia on charges of Naturalization Fraud and False Statements.
     On December 2, 2011, one subject was sentenced to 2 years’ probation and a $20,000
     fine, while the other subject was sentenced to 2 years’ probation and a $3,000 fine. In
     a related case, a third subject involved in the brokering of the visas was sentenced on
     the same date to 2 years’ probation and a $70,000 fine. (See OIG Semiannual Report,
     April 1, 2011 to September 30, 2011, p. 54) (C2011-052 & C2011-055)

     Wire Fraud, Loan Fraud, and False Statements
     OIG conducted an investigation based upon a request for assistance from the
     Department of Housing and Urban Development, Office of Inspector General, which

28
determined that a Department of State employee had submitted false statements in
order to qualify for a Federal Housing Administration mortgage loan. On April 25,
2011, the subject was indicted in the District of Maryland on one charge each of False
Statements, Wire Fraud, and Loan Fraud. On November 17, 2011, the subject pleaded
guilty to the charges. On January 4, 2012, the employee resigned in lieu of termination.
Sentencing of the subject was pending at the end of the reporting period. (See OIG
Semiannual Report, April 1, 2011 to September 30, 2011, p. 55) (C2011-005)



DATA AND INVESTIGATIVE ACTIVITIES

OIG Hotline
The Office of Inspector General Hotline is a confidential channel for receiving allegations
of fraud, waste, abuse, mismanagement, or misconduct involving Department of
State and Broadcasting Board of Governors programs, operations, and assets.
                       Total Complaints Received                   1055
                       Referral To Other Offices for Action         687
                       Held for Action Within OIG                     61
                       No Action Necessary                          307



Types of Cases




Note: May not equal 100% due to rounding.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   29
      OFFICE OF INVESTIGATIONS RECEIVES TWO ANNUAL
       COUNCIL OF INSPECTORS GENERAL ON INTEGRITY
       AND EFFICIENCY (CIGIE) AWARDS FOR EXCELLENCE
     Employees from OIG Office of Investigations received CIGIE Awards
     in 2011 for Excellence in Investigation and Excellence in Information
     Technology. For the Excellence in Investigation award, six Department
     OIG recipients and seven other agency recipients comprised the Baghdad
     Foreign Service National Investigative and Prosecutorial Team, and were
     recognized for exceptional performance in conducting a major embezzlement
     investigation resulting in a criminal conviction after a jury trial wherein new
     case law was created regarding expanded jurisdiction. Receiving the award for
     Excellence in Information Technology were five employees of the Computer
     Forensics Branch Team, who were recognized for exceptional performance in
     establishing the Department of State Office of Inspector General, Office of
     Investigations Computer Forensic Branch, and developing a new computer
     forensic methodology resulting in more effective investigations.




     Left to right: OIG Assistant Special Agent in Charge Gene Driggers; OIG Computer Forensics
     Analyst Dave Campo; OIG Special Agent in Charge Karin Pacheco; OIG Special Agent Lloyd
     Rawls; Federal Bureau of Investigation Special Agent John Longmire; retired Assistant United
     States Attorney, Eastern District of Virginia Thomas McQuillan; and former Special Inspector
     General for Afghanistan Reconstruction, Special Assistant United States Attorney, Criminal
     Division, Department of Justice David Laufman (Lead Prosecutor).




30
APPENDIX 1: DEPARTMENT OF
STATE INVESTIGATIVE ACTIVITIES

          Preliminary Inquiries
            Opened                                                                  57
            Closed                                                                  55
          Investigations
            Opened                                                                 55
            Closed                                                                 45
            Pending (3/31/12)                                                     166
          Criminal Actions
            Referrals for Prosecution                                               23
            Indictments/Informations                                                 2
            Convictions                                                              7
            Sentencings (Months Imprisonment)                                       38
            Sentencings (Months Probation)                                         132
            Declinations                                                            17
          Civil Actions
            Civil Referrals                                                          1
            Civil Judgments                                                          0
            Civil Declinations                                                       1
          Administrative Referrals
            Referrals for Personnel Action                                          11
            Suitability Referrals to DS                                              5
            Contractor Suspensions/Debarment Referrals                              25
            Management Assistance Reports                                            2
          Administrative Actions
            Removals                                                                 9
            Suspensions                                                              3
            Reprimands/Admonishments                                                 5
            Contractor Suspensions/Debarment Actions                                23
          Monetary Recoveries
            Criminal Fines/Recoveries                                     $212,520.00
            Civil Recoveries                                                       $0
            Administrative Recoveries                                              $0
           Total Investigative Recoveries                                $212,520.00




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   31
32
APPENDIX 2: REPORTS ISSUED

 Report Number          Report Title

 AUD/CG-12-10           Audit of International Boundary and Water Commission Construction
                        Contract with Inuit Services, Incorporated, Using Funds Provided by the
                        American Recovery and Reinvestment Act
 AUD/CG-12-11           Audit of International Boundary and Water Commission Construction
                        Contract with Sun Belt Builders, Inc., Using Funds Provided by the
                        American Recovery and Reinvestment Act
 AUD/CG-12-13           Audit of Funding Provided by the American Recovery and Reinvestment Act
                        for the Foreign Affairs Security Training Center
 AUD/CG-12-20           Audit of Norwegian People’s Aid Under Department of State and U.S.
                        Agency for International Development Multiple Agreements for Year Ended
                        December 31, 2009
 AUD/CG-12-25           Audit of Funding Provided by the American Recovery and Reinvestment Act
                        for the Bureau of Consular Affairs Passport Facilities Project
 AUD/CG-12-26           Audit of Contracting Officers Exceeding Delegated Procurement Authority
 AUD/CG-12-27           Review of Best-Value Contracting for the Department of State Local Guard
                        Program and the Utility of Expanding the Policy Beyond High-Threat Posts
                        in Iraq, Afghanistan, and Pakistan
 AUD/FM-12-01           Independent Accountant's Report on the Application of Agreed-Upon
                        Procedures: Employee Benefits, Withholdings, Contributions, and
                        Supplemental Semiannual Headcount Reporting Submitted to the Office of
                        Personnel Management
 AUD/FM-12-04           Independent Auditor's Report on the U.S. Department of State 2011 and
                        2010 Special-Purpose Financial Statements
 AUD/FM-12-05           Independent Auditor's Report on the U.S. Department of State 2011 and
                        2010 Financial Statements
 AUD/FM-12-06           Management Letter Related to the Audit of the U.S. Department of State
                        2011 Financial Statements
 AUD/FM-12-19           Independent Review of the U.S. Department of State Accounting of FY 2011
                        Drug Control Funds and Related Performance Report
 AUD/FM-12-31           Audit of Department of State Compliance With Improper Payments
                        Information Act
 AUD/HCI-12-30          Audit of Department of State Drug-Free Workplace Program Plan
 AUD/IP-12-02           Audit of Bureau of East Asian and Pacific Affairs Compliance With
                        Trafficking in Persons Requirements




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   33
     Report Number    Report Title

     AUD/IP-12-03     Improved Contract Documentation and Monitoring by the Regional
                      Procurement Support Office Are Needed for Construction Projects Associated
                      with the President's Emergency Plan for AIDS Relief (PEPFAR)
     AUD/IT-12-14     Evaluation of the Department of State Information Security Program
     AUD/IT-12-16     Evaluation of the International Boundary and Water Commission
                      Information Security Program
     AUD/MERO-12-18   Evaluation of Emergency Action Plans for Embassy Baghdad and Consulates
                      General Basrah and Erbil
     AUD/SI-12-17     Audit of Department of State Process To Award the Worldwide Protective
                      Services Contract and Kabul Embassy Security Force Task Order
     AUD/SI-12-28     Special Review of the Keystone XL Pipeline Permit Process
     ISP-I-12-01      Memorandum Report – Review of the FY2012 Diversity Visa Program
                      Selection Process
     ISP-I-12-04      Memorandum Report – Improvements Needed in Information Technology
                      Contingency Planning
     ISP-I-12-05      Special Review of Management of Security Operations at Embassy Stockholm,
                      Sweden
     ISP-I-12-06A     Inspection of Embassy Algiers, Algeria
     ISP-I-12-07      Inspection of the Bureau of Administration, Global Information Services,
                      Global Publishing Solutions
     ISP-I-12-08A     Inspection of Embassy Nassau, The Bahamas
     ISP-I-12-09A     Inspection of Embassy Caracas, Venezuela
     ISP-I-12-10A     Inspection of Embassy Beirut, Lebanon
     ISP-I-12-11A     Inspection of Embassy Hanoi and Consulate General Ho Chi Minh City,
                      Vietnam
     ISP-I-12-12A     Inspection of the American Institute in Taiwan
     ISP-I-12-15      Inspection of the Bureau of Educational and Cultural Affairs
     ISP-I-12-16A     Inspection of Embassy Vienna, Austria
     ISP-I-12-17A     Inspection of the U.S. Mission to International Organizations in Vienna
     ISP-I-12-18A     Inspection of the U.S. Mission to the Organization for Security and
                      Cooperation in Europe
     ISP-I-12-19A     Inspection of Tri-Mission Vienna Joint Management Office
     ISP-C-12-20      Compliance Follow-up Review of Embassy Copenhagen, Denmark




34
CLASSIFIED REPORTS ISSUED
 Report Number          Report Title

 ISP-S-12-02A           Detainee Transfers, Assurances, and Monitoring: Annual Report for 2010-
                        2011 and Compliance Follow-up Review
 ISP-S-12-03A           Second On-Site Review of the New Consulate Compound Construction Site –
                        Guangzhou, China
 ISP-S-12-06A           Classified Annex to the Inspection of Embassy Algiers, Algeria
 ISP-S-12-08A           Classified Annex to the Inspection of Embassy Nassau, The Bahamas
 ISP-S-12-09A           Classified Annex to the Inspection of Embassy Caracas, Venezuela
 ISP-S-12-10A           Classified Annex to the Inspection of Embassy Beirut, Lebanon
 ISP-S-12-11A           Classified Annex to the Inspection of Embassy Hanoi and Consulate General
                        Ho Chi Minh City, Vietnam
 ISP-S-12-12A           Classified Annex to the Inspection of the American Institute in Taiwan
 ISP-S-12-16A           Classified Annex to the Inspection of Embassy Vienna, Austria, and the U.S.
                        Mission to the Organization for Security and Cooperation in Europe, and the
                        U.S. Mission to International Organizations in Vienna




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012     35
36
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS
                                                                                   Questioned         Unsupported
                                                                    Number           Costs               Costs
                                                                      of           (Dollars in         (Dollars in
Type of Report                                                      Reports        Thousands)         Thousands)

A.    For which no management decision had been                         12             $169,879*            $73,827*
      made by the commencement of the reporting
      period
B.    Which were issued during the reporting period

      Audits
      Norwegian People’s Aid Under DOS & USAID                          1                        $6                  $6
      Multiple Agreements Year Ended 12/31/08
      (AUD/CG-12-09)
      Funding Provided by ARRA for Foreign Affairs                      1                      $23                   $0
      Security Training Center (AUD/CG-12-13)
      Norwegian People’s Aid Under DOS & USAID                          1                      $78                 $64
      Multiple Agreements Year Ending 12/31/09
      (AUD/CG-12-20)
      Improved Contract Documentation & Monitoring                      1                  $2,126                    $0
      by the Regional Procurement Support Office -
      PEPFAR (AUD/IP-12-03)

      Evaluations                                                       0                        $0                  $0

      Total issued during the reporting period                          4                  $2,233                  $69
      Subtotals (A+B)                                                   16              $172,111             $73,896

C.    For which a management decision was made
      during the reporting period
      (i) dollar value of disallowed costs                              5                   $7,919                 $11
      (ii) dollar value of costs not disallowed                         5                     $594                $541
D.    For which no management decision has been                         10               $163,598            $73,344
      made by the end of the reporting period
      Reports for which no management decision                          8                $161,394             $73,280
      was made within six months of issuance
* Final amounts in the previous SAR were adjusted based on updated information and an analysis of open recommendations.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012                          37
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                          Number
                                                                                            of               Dollars
     Type of Report                                                                       Reports        (in Thousands)

     A. For which no management decision had been made by the                                 17*                $237,153*
        commencement of the reporting period

     B.   Which were issued during the reporting period
          Audits
          Funding Provided by ARRA for CA Bureau Passport Facilities                           1                    $1,386
          Project (AUD/CG-12-25)

          Inspections
          Inspection of Embassy Nassau, Bahamas (ISP-I-12-08A)                                 1                       $492
          Inspection of Embassy Beirut, Lebanon (ISP-I-12-10A)                                 1                        $25
          Inspection of Embassy Hanoi, Vietnam (ISP-I-12-11A)                                  1                      $200
          Inspection of American Institute in Taiwan (ISP-I-12-12A)                            1                     $7,475
          Inspection of Embassy Vienna, Austria (ISP-I-12-16A)                                 1                       $711
          Inspection of Tri-Mission Vienna JMO (ISP-I-12-19A)                                  1                    $1,050


          Total issued during the reporting period                                             7                   $11,338

          Subtotals (A+B)                                                                     24                 $248,491

     C. For which a management decision was made during the                                                          $7,794
        reporting period
          (i) dollar value of recommendations that were agreed                                9                    $6,969
               to by management
               – based on proposed management action
               – based on proposed legislative action
          (ii) dollar value of recommendations that were not agreed                           2                       $825
                to by management

     D. For which no management decision has been made by the                                 19                 $240,697
        end of the reporting period
          Reports for which no management decision was made                                   12                 $229,359
          within six months of issuance

     * Final amounts in the previous SAR were adjusted based on updated information and an analysis of open recommendations.




38
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS


SIGNIFICANT OFFICE OF AUDITS RECOMMENDATIONS
PENDING FINAL ACTION

 Report              Rec.    Report Title                                                       First
 Number              No.     Recommendation Summary                                             Reported

 AUD/IQO-07-20               Review of DynCorp International, LLC, Contract                          1/07
                             Number S-LMAQM-04-C-0030, Task Order 0338,
                             for the Iraqi Police Training Program Support (Joint
                             audit with the Special Inspector General for Iraq
                             Reconstruction)
                       2     OIG recommended the Office of Acquisitions Management
                             seek reimbursement from DynCorp for the improperly
                             authorized payment of $4.2 million that represents contrac-
                             tually unauthorized work directed by the Iraqi Ministry of
                             Interior. This work included the relocation of the residential
                             camp, the manufacture of additional VIP trailers, and the
                             construction of an Olympic-size swimming pool.

 AUD/IQO-07-48               Accounting for Government-Owned Personal Property                       9/07
                             Held by Selected Contractors in Afghanistan
                       1     OIG recommended the Department develop and implement
                             policies and procedures to achieve compliance with Federal
                             Acquisition Regulation requirements for reviewing a contrac-
                             tor’s property control system.
                       2     OIG recommended the Department take actions to address
                             the $2.9 million in unallowable costs identified in this
                             report, including the following:
                                  •	 Reconciling contract requirements to the property
                                      acquired and invoiced by the contractors for which
                                      they were reimbursed and determine whether property
                                      in excess of amounts specified in the contract or task
                                      order was required to accomplish contract objectives.
                                  •	 Documenting the reconciliation and determination,
                                      use them as the basis for approving the costs of
                                      any excess property deemed allowable, and issue a
                                      modification to the task order indicating the approval.
                                  •	 Resolving any unallowable costs associated with
                                      property that was determined to be unnecessary to
                                      the accomplishment of contract objectives.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012           39
     Report          Rec.   Report Title                                                       First
     Number          No.    Recommendation Summary                                             Reported

                       3    OIG recommended the Department take the following steps
                            to address the $25.5 million in unsupported costs indentified
                            in this report:
                                 •	 Reconcile the property acquired and invoiced by the
                                     contractors for which they were reimbursed to the
                                     contractor’s property lists by obtaining and reviewing
                                     contractor documentation detailing the types and
                                     quantities of property acquired.
                                 •	 Determine whether the property was needed and
                                     consistent with contract requirements.
                                 •	 Resolve any unsupported allowable costs associated with
                                     property that could not be supported with adequate
                                     documentation or was determined to be unnecessary to
                                     the accomplishment of contract objectives.
                       5    OIG recommended the Department evaluate its current
                            structure for monitoring government property held by
                            contractors, assess the benefits of creating a property admin-
                            istrator function, and use this evaluation to clearly define the
                            authority and responsibility for property oversight for each
                            member of its contract administration team.

     AUD/IQO-09-25          Audit of the Design and Construction of the New Embassy                10/09
                            Compound in Baghdad, Iraq
                       1    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt
                            to recover $4.6 million from First Kuwaiti Trading and
                            Contracting for the infrastructure contract to make the
                            necessary corrections to the safe areas in the New Embassy
                            Compound.
                       2    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt to
                            recover $14 million for the housing, infrastructure, support
                            facilities, and the chancery contracts from First Kuwaiti
                            Trading and Contracting to perform the necessary design and
                            retrofit of seismic bracing in the New Embassy Compound.
                       4    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt
                            to recover $1.7 million from First Kuwaiti Trading and
                            Contracting for the housing, infrastructure, support facilities,
                            and the chancery contracts so that the necessary repairs to the
                            exterior walls and walkway and road surfaces can be made.
                       6    OIG recommended that the Contracting Officer, Bureau of
                            Administration, Office of Logistics Management, attempt to
                            recover approximately $500,000 from First Kuwaiti Trading
                            and Contracting for the infrastructure contract to increase
                            the penthouse size and air flow through the louvers of the
                            Utility Building.


40
 Report              Rec.    Report Title                                                     First
 Number              No.     Recommendation Summary                                           Reported

                       7     OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover approximately $11 million from First Kuwaiti
                             Trading and Contracting for the infrastructure contract to
                             compensate the Department of State for additional operating
                             costs that will be incurred because the configuration of the
                             Utility Building/Generator Plant was changed from the 10
                             2-megawatt configuration to 18 1-megawatt generators.
                       8     OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover between $4.2 million and $4.4 million from First
                             Kuwaiti Trading and Contracting for the infrastructure
                             contract to correct all deficiencies to the electrical wiring,
                             control, and distribution systems at the New Embassy
                             Compound.
                       9     OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt to
                             recover an estimated $500,000 from First Kuwaiti Trading
                             and Contracting for the infrastructure contract so that the
                             necessary functions can be added to the building automation
                             system at the New Embassy Compound.
                       10    OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover $4.6 million from First Kuwaiti Trading and
                             Contracting to correct fire system deficiencies for the
                             staff diplomatic apartments ($3.5 million for the housing
                             contract) and repair the water main distribution system
                             joints ($1.1 million for the infrastructure contract).
                       11    OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover approximately $1.5 million from First Kuwaiti
                             Trading and Contracting for the infrastructure and housing
                             contracts to correct deficiencies in the plumbing traps at the
                             New Embassy Compound.
                       12    OIG recommended that the Contracting Officer, Bureau of
                             Administration, Office of Logistics Management, attempt
                             to recover approximately $33 million that was paid to First
                             Kuwaiti Trading and Contracting to perform and document
                             the required design work for the New Embassy Compound
                             Baghdad contracts.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012        41
     Report         Rec.   Report Title                                                       First
     Number         No.    Recommendation Summary                                             Reported

                     13    OIG recommended that the Contracting Officer, Bureau of
                           Administration, Office of Logistics Management, attempt to
                           recover approximately $38 million for the housing, infra-
                           structure, support facilities, chancery, and pre-engineered
                           buildings to compensate the U.S. Government for the higher
                           future maintenance costs and negotiate a settlement with
                           First Kuwaiti Trading and Contracting to fund the addi-
                           tional long-term maintenance costs.
                     14    OIG recommended that the Contracting Officer, Bureau of
                           Administration, Office of Logistics Management, attempt
                           to recover approximately $3.8 million for the housing, infra-
                           structure, site facilities, and chancery contracts that First
                           Kuwaiti Trading and Contracting did not perform or that it
                           performed incorrectly related to commissioning activities.

     MERO-I-11-02          Performance Evaluation of PAE Operations and                            2/11
                           Maintenance Support for the Bureau of International
                           Narcotics and Law Enforcement Affairs' Counternarcotics
                           Compounds in Afghanistan
                      2    OIG recommended that the Bureau of International
                           Narcotics and Law Enforcement Affairs implement a quality
                           assurance surveillance plan to evaluate and measure overall
                           contractor performance and the performance of subcontrac-
                           tors in operations and maintenance support against the
                           contract and task order to determine if the contractor and
                           subcontractors are providing the required services.
                      3    OIG recommended that the Bureau of International
                           Narcotics and Law Enforcement Affairs ensure that a suffi-
                           cient number of dedicated contracting officer's representa-
                           tives are physically present in Afghanistan to provide proper
                           oversight of the contracts for operation and maintenance
                           support at the counternarcotics compounds.
                      6    OIG recommended that the Bureau of International
                           Narcotics and Law Enforcement Affairs, in coordination
                           with Embassy Kabul and in consultation with the Drug
                           Enforcement Administration, evaluate the physical security
                           requirements at the Kabul counternarcotics compound.
                      7    The Office of Acquisitions Management should require PAE
                           to incorporate engineering data into the maintenance and
                           operations support plan for the counternarcotics compound
                           in Kunduz, resolve construction deficiencies in the laundry
                           facility and kitchen, and assess the electric power needs of the
                           compound before purchasing new diesel generators.




42
 Report              Rec.    Report Title                                                   First
 Number              No.     Recommendation Summary                                         Reported

                       9     OIG recommended that the Bureau of International
                             Narcotics and Law Enforcement Affairs ensure all guards at
                             the counternarcotics compound in Kunduz are familiar with
                             standard operating procedures for security and that guards
                             are getting sufficient rest and days off.

 MERO-I-11-05                Performance Evaluation of PAE Operations and Maintenance            1/11
                             Support at Embassy Kabul, Afghanistan
                       2     The Bureau of Administration should seek reimbursement of
                             $193,600 from PAE for award fees paid for all four quarters
                             of the base year of the contract (September 2005-September
                             2006), since performance criteria had not yet been estab-
                             lished or authorized for that year.
                       3     The Bureau of Administration should seek reimburse-
                             ment of $41,730 from PAE for award fees granted based on
                             points earned for training in option years 1-3 (September
                             2006-September 2009), since all training-related work
                             was completed at the end of the base year (September
                             2005-September 2006).
                       12    The Bureau of Administration should seek reimbursement of
                             $248,820 from PAE for escort services invoiced and paid for,
                             but not rendered, from March 2009 through June 2010.
                       16    The Bureau of Administration should modify the PAE
                             contract to include Federal Acquisition Regulation clause
                             52.222-50 (Combating Trafficking in Persons).




SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
Report Number: AUD/FM-10-28
Subject: Audit of Corrective Action Plan for Real Property
Date Issued: August 25, 2010
Reason for not being resolved: In January 2011, the Bureau of Overseas Buildings
Operations requested an extension from OIG to respond to the recommendation
(No. 3) that called for a corrective action plan to improve and formalize the account-
ability process for task owners and that will monitor and track the completion of
corrective action plan milestones. The extension was granted by OIG until April
2011; however, OIG had not received a response as of the end of this reporting
period. Therefore, Recommendation 3 remains unresolved.
Projected date of resolution: September 2012

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012       43
     Report Number: MERO-I-11-04
     Subject: Design and Construction of Embassy Dushanbe’s Recreation Center
     Date Issued: March 30, 2011
     Reason for not being resolved: OIG recommended that the Department require
     the contracting officer for a post-managed construction project to obtain an inter-
     nal audit before awarding a contract that varies by more than 20 percent from
     the Independent Government Cost Estimate and establish minimum technical
     qualifications for contracting officer’s representatives overseeing post-managed
     construction projects to ensure construction meets quality standards. The Bureau
     of Administration, Office of Logistics Management, Office of Acquisitions
     Management, and the Bureau of Overseas Buildings Operations were requested to
     respond to Recommendations 2 and 5, respectively, by February 29, 2012. However,
     OIG did not receive responses as of the end of this reporting period. Therefore,
     Recommendations 2 and 5 remain unresolved.
     Projected date of resolution: May 2012



     Report Number: MERO-I-11-05
     Subject: PAE Maintenance and Operations at Embassy Kabul
     Date Issued: January 4, 2011
     Reason for not being resolved: Embassy Kabul was requested to respond to the
     report’s nine recommendations that pertained to it by February 3, 2011. However,
     Embassy Kabul did not respond to Recommendations 4, 5, 6, 7, 9, 10, 13, 14, and 15
     by the end of this reporting period. OIG plans to perform a followup review on these
     recommendations in April 2012. Therefore, these nine recommendations remain
     unresolved.
     Projected date of resolution: May 2012



     Report Number: AUD/FM-11-29
     Subject: Expenditures From the Department of State Emergencies in the Diplomatic
     and Consular Service Appropriation
     Date Issued: August 8, 2011
     Reason for not being resolved: OIG recommended that the Bureau of Resource
     Management (RM) obtain an opinion from the Office of the Legal Adviser as to
     whether the Emergencies in the Diplomatic and Consular Service appropriation
     should have been used to upgrade the kitchen that services the Diplomatic Reception

44
Rooms and on the specific circumstances under which additional representation
funds can be provided to overseas posts. In communications with OIG during March
2012, Department officials stated that they would not provide a legal opinion on
past events but would provide an informal memorandum. OIG received a draft
memorandum at the end of this reporting period, however, it has not been finalized.
Therefore, two recommendations (Nos. 3 and 4) remain unresolved.
Projected date of resolution: June 2012



Report Number: AUD/CG-11-30
Subject: Department of Defense Funds Provided to Department of State for the
Afghan National Police
Date Issued: July 11, 2011
Reason for not being resolved: OIG recommended that the Department return
funds to the Department of Defense that were determined to be outside the scope
of reimbursable agreements; perform a joint investigation with the Defense Security
Cooperation Agency of potential Antideficiency Act violations of funds obligated
outside the scope of the reimbursable agreements; require all contracting officers,
supporting staff, and personnel involved in obligating or disbursing funds to take
appropriation law training classes; and increase the scope of the pre-payment invoice
review for task order 5375 invoices to identify unauthorized costs and develop proce-
dures to validate specific costs. The Bureau of International Narcotics and Law
Enforcement Affairs, the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management, and the Bureau of Resource Management and
Chief Financial Officer were requested to respond to recommendations by January 9,
2012, January 20, 2012, and February 5, 2012, respectively. However, OIG had not
received responses as of the end of the reporting period. Therefore, 15 recommenda-
tions (Nos. A.1.b; A.5.a and A.5.f; A.6; A.8.a, A.8.b, A.8.c, A.8.d, A.8.e, and A.8.f;
and B.1.a, B.1.b, B.1.c, B.1.d, and B.1.e) remain unresolved.
Projected date of resolution: July 2012



Report Number: AUD/CG-11-44
Subject: Afghan National Police Training – Better Compliance With the Economy
Act and Reimbursable Agreements
Date Issued: August 25, 2011
Reason for not being resolved: OIG recommended that the Department of State
identify and return funds to the Department of Defense that were improperly obli-
gated; develop and implement policies and procedures to ensure that any appropriation

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   45
     limitations on funds transferred to other U.S. Government agencies were taken into
     account before obligating funds for personal services contracts; and develop policies and
     procedures to ensure that that before obligating funds under an Economy Act order, the
     Department validated that the ordering agency had the necessary authority to obligate
     funds for those purposes. The Bureau of International Narcotics and Law Enforcement
     Affairs was requested to respond to the recommendation by January 9, 2012. However,
     OIG had not received a response as of the end of this reporting period. Therefore, three
     recommendations (Nos. 1.a, 1.d, and 1.e) remain unresolved.
     Projected date of resolution: August 2012


     REVISED MANAGEMENT DECISIONS
     None.


     MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
     RECOMMENDATIONS

     Performance Evaluation of the Bureau of Diplomatic Security Kabul Embassy
     Security Force (MERO-A-10-11)
     OIG recommended that the Department attempt to recover funds from contractors
     for false claims and misuse of U.S. Government-furnished weaponry. The contractors
     returned $7.9 million to the U.S. Government.


     SIGNIFICANT INSPECTIONS RECOMMENDATIONS PENDING
     FINAL ACTION

      Report             Rec.   Report Title                                                   First
      Number             No.    Recommendation Summary                                         Reported

      ISP-I-11-11               Inspection of the Department’s Required and Congressionally        10/10
                                Mandated Reports: Assessment of Resource Implications
                           2    The Bureau of Legislative Affairs, in coordination with the
                                Office of the Legal Adviser and the Executive Secretariat,
                                should consult Congress about submitting congressionally
                                mandated reports for some specific countries in less detail,
                                and identifying those reports to the appropriate congressio-
                                nal committees.




46
 Report              Rec.    Report Title                                                      First
 Number              No.     Recommendation Summary                                            Reported

                       3     The Office of Management Policy, Rightsizing and
                             Innovation, in coordination with the Bureau of Resource
                             Management, should direct all missions to document the
                             approximate costs (to reflect time and pay scales of personnel
                             involved) that are devoted to the preparation of congres-
                             sionally mandated and Department reports, and include this
                             data in annual budget requests.

 ISP-I-11-37                 Review of the Oversight of Rest & Recuperation Travel                 04/11
                             Documentation and Certification
                       1     OIG recommended that the Under Secretary for
                             Management should transfer the responsibility for approval
                             and certification for rest and recuperation travel benefits
                             from the regional bureaus to the Offices of Allowances in the
                             Bureau of Administration to facilitate the timely submissions
                             of justifications for continued eligibility of benefits by rest
                             and recuperation posts.
                       2     OIG recommended that the Bureau of Administration
                             should obtain updated biennial documentation from overseas
                             posts currently receiving rest and recuperation benefits and
                             reassess justifications for continued eligibility.

 ISP-I-11-54A                Inspection of the U.S. Mission to the United Nations, New York        07/11
                       2     OIG recommended that the Bureau of International
                             Organization Affairs, in coordination with the U.S. Mission
                             to the United Nations, the Bureau of Diplomatic Security,
                             and the Office of the Under Secretary for Management,
                             should develop standing guidance for support staffing in
                             New York and Washington, and budgeting for permanent
                             representatives with and without Cabinet rank.

 ISP-I-11-57                 Inspection of the Office of the Director of U.S. Foreign              08/11
                             Assistance
                       1     OIG recommended that the Office of the Director of U.S.
                             Foreign Assistance should request that the Deputy Secretary
                             of State for Management and Resources issue a statement
                             emphasizing the Office of the Director of U.S. Foreign
                             Assistance’s central role in foreign assistance planning and
                             budgeting, and requiring that Department bureaus consult
                             with the office whenever the use of foreign assistance
                             resources is contemplated.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012          47
      Report            Rec.   Report Title                                                       First
      Number            No.    Recommendation Summary                                             Reported

                          2    OIG recommended that the Office of the Director of U.S.
                               Foreign Assistance should conclude and disseminate a
                               written understanding on the budget process with the U.S.
                               Agency for International Development, including respec-
                               tive roles of the Department’s Office of the Director of U.S.
                               Foreign Assistance and the U.S. Agency for International
                               Development’s Office of Budget and Resource Management
                               and participating bureaus in both organizations, for the
                               preparation of the FY 2014 foreign assistance budget.
                          6    OIG recommended that the Office of the Director of U.S.
                               Foreign Assistance, in coordination with the Bureau of
                               Resource Management, should prepare a study to determine
                               whether there are cost-effective solutions for collecting timely
                               data on budget execution, and make the data accessible to
                               the Office of the Director of U.S. Foreign Assistance, its
                               operating units, and stakeholders.




     SUMMARY OF INSPECTION REPORTS WITHOUT MANAGEMENT
     DECISION FOR MORE THAN SIX MONTHS
     Report Number: ISP-I-11-60
     Subject: Report of Inspection of the Bureau of Consular Affairs, Overseas Citizens
     Services, Office of American Citizens Services and Crisis Management
     Date Issued: August 15, 2011
     Reason for Not Being Resolved: OIG recommended that The Bureau of Consular
     Affairs (CA) eliminate two positions in the Office of American Citizens Services
     and placed a hold on both positions to preclude the positions being encumbered. CA
     disagreed with the recommendations. OIG and CA are in the process of reaching an
     acceptable solution for both recommendations.
     Projected Date of Resolution: June 2012



     Report Number: ISP-I-11-11
     Subject: Report of Inspection of Department Required and Congressionally
     Mandated Reports: Assessment of Resource Implications
     Date Issued: October 25, 2010



48
Reason for Not Being Resolved: OIG recommended that the Office of Management
Policy, Rightsizing and Innovation (M/PRI), direct all missions to document the
approximate costs that are devoted to preparation of congressionally mandated and
Department-required reports, and to include this data in annual budget requests.
M/PRI delayed responding to the recommendation but reported that it would
provide an update to the recommendation after the release of the Quadrennial
Diplomacy and Development Review (QDDR) progress report to the Secretary. M/PRI
and OIG are working to resolve this recommendation in the near future.
Projected Date of Resolution: May 2012



Report Number: ISP-I-11-47
Subject: Report of Inspection of the Bureau of South and Central Asian Affairs
Date issued: June 22, 2011
Reason for Not Being Resolved: OIG recommended that the Bureau of South
Central Asian Affairs (SCA) should publish a single policy on requests for extension
of 3161 employment that describes the process by which extension requests will be
reviewed, approved, or denied. OIG also recommended that SCA develop a written rating
system for employees hired temporarily under 3161 authority, and assigned outside
Iraq, to make possible a vetting system for reemployment. SCA reported that it has
no authority over 3161 employment issues, and OIG transferred action to the Special
Representative for Afghanistan and Pakistan (S/SRAP). A response is pending.
Projected Date of Resolution: March 31, 2012



Report Number: ISP-I-11-55A
Subject: Report of Inspection of Embassy Seoul, Korea
Date issued: August 1, 2010
Reason for Not Being Resolved: OIG recommended that Embassy Seoul develop and
implement a plan to transfer a portion of the embassy’s voucher workload to the Post
Support Unit. Embassy Seoul disagreed with the recommendation. OIG also made
several recommendations to the Bureau of Overseas Buildings Operations (OBO) to:
identify and evaluate the costs associated with the United States Forces Korea’s depar-
ture in 2016; conduct a design survey for new embassy compound; and send a team to
conduct a survey of housing options to assess the cost of converting infrastructure in
the current housing compound. OBO disagrees with the recommendations. OIG is work-
ing with the action offices to seek consensus and resolution of the recommendations.
Projected Date of Resolution: April 2012

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   49
     Report Number: ISP-I-11-49
     Subject: Report of Inspection of the Bureau of Near Eastern Affairs
     Date issued: May 2011
     Reason for Not Being Resolved: OIG recommended that the Bureau of Near
     Eastern Affairs (NEA) submit to the Bureau of Human Resources a list identifying
     both delinquent performance evaluation raters and Civil Service employees whose
     appraisal reports were late or not prepared. In addition, OIG recommended that
     NEA institute a policy with sanctions that would require supervisors to complete
     employee appraisal reports prior to leaving their positions with the bureau. NEA
     disagreed with the recommendations. OIG is consulting with NEA and the Bureau
     of Human Resources to resolve the recommendation.
     Projected Date of Resolution: June 15, 2012


     REVISED MANAGEMENT DECISIONS
     None.


     MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
     RECOMMENDATIONS

     Inspection of Embassy Valletta, Malta (ISP-I-11-16A)
     OIG recommended, and the Bureau of European and Eurasian Affairs agreed, to
     discontinue rest and recuperation benefits for Embassy Valletta at an annually-recur-
     ring value of approximately $40,000 in funds put to better use.

     Inspection of Embassy Pretoria, South Africa (ISP-I-11-42A)
     OIG recommended that Embassy Pretoria significantly downsize or close Consulate
     General Durban. Embassy Pretoria eliminated one U.S. direct-hire position, one
     eligible family member position and three locally employed staff positions at an
     annually-recurring value of approximately $690,000 in funds put to better use..

     Inspection of Embassy Warsaw, Poland (ISP-I-11-64A)
     In the report of inspection of Embassy Warsaw, OIG issued 14 cost-saving recom-
     mendations. During this SAR reporting period, Embassy Warsaw implemented six
     recommendations totaling more than $1.4 million in funds put to better use. The
     implemented recommendations include: Eliminating two U.S. direct-hire positions


50
(replacing one with an eligible family member); eliminating two part-time and four
full-time locally employed staff; and implementing procedures to factor value-added
tax reimbursement into Embassy Warsaw’s cost of living allowance calculations.


INVESTIGATIVE MANAGEMENT ASSISTANCE REPORT
RECOMMENDATIONS PENDING FINAL ACTION

 Report              Rec.    Report Title                                                       First
 Number              No.     Recommendation Summary                                             Reported

 INV/P2012-014               Management Assistance Report P2012-014	                                02/12
                       1     OIG recommended the Under Secretary for Management,
                             in coordination with the Office of the Legal Advisor, ensure
                             DOS employees occupying positions whose duties and
                             responsibilities require them to participate personally and
                             substantially in activities that so affect a non-Federal entity
                             be required to submit a confidential financial disclosure
                             report (OGE-450).

 INV/C2010-031               Management Assistance Report C2010-031                                 02/12
                       1     OIG recommended the Office of Acquisitions Management
                             in coordination with the Office of the Procurement
                             Executive, require all contractors to submit a list of all prin-
                             cipals as defined in the representations and certifications to
                             the Department as part of the contract bidding package.
                       2     OIG recommended the Office of the Procurement Executive
                             issue guidance requiring all contracting officers, in addition
                             to searching the EPL for company names, to include a search
                             of the names of all principal officers listed to determine if
                             any party has been suspended or debarred from government
                             contracting.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012           51
52   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

                                                                                                Type of
Report Number     Report Title                                               Contractor
                                                                                                Engagement
AUD/CG-12-10      Audit of International Boundary and Water                  Cotton &           Performance
                  Commission Construction Contract With Inuit Services,      Company, LLP       Audit
                  Inc., Using Funds Provided by the American Recovery
                  and Reinvestment Act
AUD/CG-12-11      Audit of International Boundary and Water                  Cotton &           Performance
                  Commission Construction Contract With Sun Belt             Company, LLP       Audit
                  Builders, Inc., Using Funds Provided by the American
                  Recovery and Reinvestment Act
AUD/CG-12-13      Audit of Funding Provided by the American Recovery         Cotton &           Performance
                  and Reinvestment Act for the Foreign Affairs Security      Company, LLP       Audit
                  Training Center
AUD/CG-12-20      Audit of Norwegian People’s Aid Under Department of        Gelman,            Performance
                  State and U.S. Agency for International Development        Rosenberg &        Audit
                  Multiple Agreements for Year Ended December 31, 2009       Freedman CPAs
AUD/CG-12-25      Audit of Funding Provided by the American Recovery      Cotton &              Performance
                  and Reinvestment Act for the Bureau of Consular Affairs Company, LLP          Audit
                  Passport Facilities Project
AUD/CG-12-26      Audit of Contracting Officers Exceeding Delegated          Kearney &          Performance
                  Procurement Authority                                      Company, P.C.      Audit
AUD/FM-12-01      Independent Accountant’s Report on the Application         Kearney &          Financial
                  of Agreed-Upon Procedures: Employee Benefits,              Company, P.C.      Statement
                  Withholdings, Contributions, and Supplemental
                  Semiannual Headcount Reporting Submitted to the
                  Office of Personnel Management
AUD/FM-12-04      Independent Auditor’s Report on the U.S. Department of     Kearney &          Financial
                  State 2011 and 2010 Special-Purpose Financial Statements   Company, P.C.      Statement
AUD/FM-12-05      Independent Auditor’s Report on the U.S. Department of     Kearney &          Financial
                  State 2011 and 2010 Financial Statements                   Company, P.C.      Statement
AUD/FM-12-06      Management Letter Related to the Audit of the U.S.         Kearney &          Financial
                  Department of State 2011 Financial Statements              Company, P.C.      Statement
AUD/FM-12-31      Audit of Department of State Compliance With the           Kearney &          Performance
                  Improper Payments Information Act                          Company, P.C.      Audit
AUD/IP-12-02      Audit of Bureau of East Asian and Pacific Affairs          RM Advisory        Performance
                  Compliance With Trafficking in Persons Requirements        Services, LLC      Audit
AUD/IT-12-14      Evaluation of Department of State Information Security     Williams Adley &   Independent
                  Program                                                    Company, LLP       Evaluation


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012             53
54
APPENDIX 6: PEER REVIEWS
CONDUCTED BY OTHER OFFICES
OF INSPECTOR GENERAL

Peer reviews are conducted of an OIG audit organization’s system of quality control
on a 3-year cycle in accordance with the CIGIE [Council of the Inspectors General
on Integrity and Efficiency] Guide for Conducting External Peer Reviews of the Audit
Organizations of Federal Offices of Inspector General, based on requirements in the
Government Auditing Standards. Federal audit organizations can receive a rating of
pass, pass with deficiencies, or fail.
The Office of Audits did not undergo a Peer Review during this reporting period.
The last Office of Audits Peer Review was conducted by the National Aeronautics
and Space Administration (NASA), with a report issued on October 12, 2009. That
report contained five recommendations to the Middle East Region Operations
(MERO) and two recommendations to AUD designed to further strengthen the
system of quality control in both organizations. (MERO subsequently merged with
AUD.) NASA’s OIG agreed with the actions taken and planned for the recommenda-
tions and considered the recommendations closed.
OIG’s Office of Investigations was the subject of a Quality Assessment (Peer)
Review conducted in September 2011 by the Railroad Retirement Board, Office of
Inspector General (RRB-OIG). RRB-OIG issued its final Peer Review report on
November 10, 2011. RRB-OIG found the Office of Investigations to be in compli-
ance with the internal safeguards and management procedures standards set by the
Council of Inspectors General on Integrity and Efficiency, and did not make any
formal recommendations in its report.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   55
56
BROADCASTING
  BOARD OF
 GOVERNORS
58
OFFICE OF AUDITS

Independent Auditor’s Report on the Broadcasting Board of Governors 2011 and
2010 Financial Statements (AUD/IB-12-07)
In an audit of BBG’s 2011 and 2010 financial statements, an independent exter-
nal auditor determined that the financial statements present fairly, in all material
respects, BBG’s financial position as of September 30, 2011 and 2010, and its net cost
of operations, changes in net position, and changes in budgetary resources for the
years then ended, in conformity with accounting principles generally accepted in the
United States of America.
The auditor found significant deficiencies in internal control related to property,
unliquidated obligations, and the liability for Foreign Service national after-
employment benefits.

Management Letter Related to the Audit of the Broadcasting Board of
Governors 2011 and 2010 Financial Statements (AUD/IB-12-08)
During the audit of BBG’s 2011 and 2010 financial statements, an independent
external auditor identified internal control weaknesses or instances of noncompliance
with selected provisions of applicable laws and regulations relating to information
security, Fund Balance with Treasury, accounts receivable, nonpersonnel expenses
and accounts payable accrual, and accounts payable.
The external auditor made recommendations for BBG to address these weaknesses.

Survey of Broadcasting Board of Governors Suspension and Debarment Process
(AUD/CG-12-24)
OIG conducted a survey of BBG’s suspension and debarment process to determine
the efficacy of BBG’s suspension and debarment policies and procedures to ensure
that BBG (1) did not solicit offers from, and award contracts to, contractors whose
names are in the Excluded Parties List System (EPLS); (2) promptly reported, investi-
gated, and referred to the debarring official (the individual authorized by the agency
head to impose debarment) matters appropriate for that official’s consideration; and
(3) made practical suspension and debarment decisions consistent with the principles
of fundamental fairness as defined in Federal regulations.
OIG determined that BBG did not have sufficiently detailed suspension and debarment
policies and procedures and did not record certain contractor performance information
in Federal automated procurement databases. However, OIG could not determine the
extent of BBG’s actions regarding contractors whose names were on EPLS.

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   59
     OIG made recommendations for BBG to strengthen its suspension and debarment
     policies and procedures and for it to develop procedures to ensure all pertinent
     contractor performance information is recorded in the databases.

     Audit of Broadcasting Board of Governors Compliance With the Improper
     Payments Information Act (AUD/IB-12-32)
     In compliance with the Improper Payments Elimination and Recovery Act of 2010
     (IPERA), OIG audited BBG’s compliance with the Improper Payments Information
     Act of 2002, as amended by IPERA.
     OIG found that BBG had not performed an assessment of the risk of improper
     payments and had not implemented a payment recapture audit program. Also, BBG
     had not included all required information in its Performance and Accountability
     Report (PAR).
     OIG recommended that BBG either perform a risk assessment and implement recap-
     ture audit techniques or better document the determination that these processes are
     not beneficial. OIG also recommended that BBG develop a standardized process to
     ensure all required information is included in the PAR.

     Evaluation of the Broadcasting Board of Governors Information Security
     Program (AUD/IT/IB-12-15)
     In response to the Federal Information Security Management Act of 2002 (FISMA),
     OIG had an independent public accountant review BBG’s Information Security
     Program to evaluate BBG’s progress in addressing FISMA information management
     and information security program requirements.
     The public accountant found that BBG, since the FY 2010 review, had improved
     management controls, completed security tests and evaluations and developed risk
     assessments and system security plans for its major systems, implemented a more
     robust security incident response tracking process, and developed password manage-
     ment policies and procedures to reduce the risk of unauthorized access.
     Overall, BBG had continued its efforts to further develop its information secu-
     rity program. However, the public accountant made recommendations for BBG to
     improve and bring the program into compliance with applicable requirements.




60
OFFICE OF INSPECTIONS

Limited Inspection of Broadcasting Board of Governors Operations in Vietnam
(ISP-IB-12-13)
OIG conducted a limited scope inspection of a computer and dedicated Internet
network (DIN) maintained by the Voice of America (VOA) on the grounds of
Consulate General Ho Chi Minh City, Vietnam.
The inspection team found that the VOA DIN does not place a burden on the
consulate’s operations and that all equipment is located in an appropriately secured
building, receives annual maintenance from VOA’s Hong Kong personnel, and is in
good working order.
The OIG team made no recommendations.

Limited Inspection of Broadcasting Board of Governors Operations in Taiwan
(ISP-IB-12-14)
OIG conducted a limited inspection of BBG operations in Taiwan. Radio Free Asia
(RFA) Taipei is staffed by contract employees and works in four formats: written,
audio, video, and online.
The inspection showed that RFA Taipei communicates daily with RFA headquarters,
which handles all of its financial management. The American Institute in Taiwan
does not provide management services to RFA Taipei, which has little or no contact
with the American Institute in Taiwan, and is not regularly notified of American
Institute in Taiwan press conferences or public events.
The OIG team reminded the American Institute in Taiwan public diplomacy section
that it should treat RFA like any other commercial media correspondent, including it
in media announcements and press releases. There were no formal recommendations.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   61
62
APPENDIX 1: BROADCASTING
BOARD OF GOVERNORS
INVESTIGATIVE ACTIVITIES

              Preliminary Inquiries
               Opened                                                           2
               Closed                                                           1
              Investigations
               Opened                                                           2
               Closed                                                           0
               Pending (3/31/12)                                                2
              Criminal Actions
               Referrals for Prosecution                                        0
               Indictments/Informations                                         0
               Convictions                                                      0
               Sentencings (Months Imprisonment)                                0
               Sentencings (Months Probation)                                   0
               Declinations                                                     0
              Civil Actions
               Civil Referrals                                                  0
               Civil Judgments                                                  0
               Civil Declinations                                               0
              Administrative Referrals
               Referrals for Personnel Action                                   0
               Suitability Referrals to DS                                      0
               Contractor Suspension/Debarment Referrals                        0
              Administrative Actions
               Removals                                                         0
               Suspensions                                                      0
               Reprimand/Admonishments                                          0
               Contractor Suspension/Debarments/High Risks                      0
              Monetary Recoveries
               Criminal Fines/Recoveries                                       $0
               Civil Recoveries                                                $0
               Administrative Recoveries                                       $0
               Total Investigative Recoveries                                  $0




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   63
64
APPENDIX 2: BROADCASTING BOARD
OF GOVERNORS REPORTS ISSUED


 Report Number           Report Title

 AUD/CG-12-24            Survey of Broadcasting Board of Governors Suspension and Debarment
                         Process
 AUD/IB-12-07            Independent Auditor's Report on the Broadcasting Board of Governors 2011
                         and 2010 Financial Statements
 AUD/IB-12-08            Management Letter Related to the Audit of the Broadcasting Board of
                         Governors 2011 and 2010 Financial Statements
 AUD/IB-12-32            Audit of Broadcasting Board of Governors Compliance With the Improper
                         Payments Act
 AUD/IT/IB-12-15         Evaluation of the Broadcasting Board of Governors Information Security
                         Program
 ISP-IB-12-13            Memorandum Report: Limited Inspection of Broadcasting Board of
                         Governors Operations in Vietnam
 ISP-IB-12-14            Memorandum Report: Limited Inspection of Broadcasting Board of
                         Governors Operations in Taiwan




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   65
66
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES


TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS

                                                      Number      Questioned      Unsupported
                                                        of      Costs (Dollars   Costs (Dollars
 Type of Report                                       Reports   in Thousands)    in Thousands)

 A.   For which no management decision has been         0            $0                $0
      made by the commencement of the reporting
      period
 B.   Which were issued during the reporting period     0            $0                $0

      Subtotals (A + B)                                 0            $0                $0

 C.   For which a management decision was made
      during the reporting period based on formal
      administrative or judicial appeal
      (i) dollar value of disallowed costs              0            $0                $0
      (ii) dollar value of costs not disallowed         0            $0                $0

 D.   For which no management decision has been         0            $0                $0
      made by the end of the reporting period

      Reports for which no management decision          0            $0                $0
      was made within 6 months of issuance




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   67
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                      Number          Dollars
     Type of Report                                                  of Reports   (in Thousands)

     A.   For which no management decision has been made by              0             $0
          the commencement of the reporting period

     B.   Which were issued during the reporting period                  0             $0

          Subtotals (A + B)                                              0             $0

     C.   For which a management decision was made during the
          reporting period
          (i) dollar value of recommendations that were agreed to       0             $0
               by management
               – based on proposed management action
               – based on proposed legislative action
          (ii) dollar value of recommendations that were not            0             $0
                agreed to by management

     D.   For which no management decision has been made by              0             $0
          the end of the reporting period

          Reports for which no management decision was made              0             $0
          within 6 months of issuance




68
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL
ACTION
None.


SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
None.


REVISED MANAGEMENT DECISIONS
None.


MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS

Audit of Broadcasting Board of Governors Overseas Nonexpendable Personal
Property (AUD/HCI-10-24)
OIG recommended that BBG improve the accuracy of annual and accumulated
depreciation and the net book value of capitalized property as reported on the annual
financial statements, and to improve internal controls relating to the valuation and
annual verification of all personal nonexpendable property. As a result of OIG’s
recommendations, BBG provided guidance and training on the conduct of physical
inventories of nonexpendable personal property; conducted and certified physical
inventories of nonexpendable personal property at all overseas transmitting stations,
with all applicable property accounted for; and updated property inventory records
as appropriate. In addition, BBG assigned salvage values to applicable capitalized
nonexpendable personal property, and modified and used its property accountabil-
ity system as the source of capitalized nonexpendable personal property values and
depreciation on BBG’s annual financial statements.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   69
70
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

                                                                                          Type of
Report Number       Report Title                                       Contractor
                                                                                          Engagement
AUD/IB-12-07       Independent Auditor’s Report on the Broadcasting    Clarke Leiper,     Financial
                   Board of Governors 2011 and 2010 Financial          PLLC               Statement
                   Statements
AUD/IB-12-08       Management Letter Related to the Audit of the       Clarke Leiper,     Financial
                   Broadcasting Board of Governors 2011 and 2010       PLLC               Statement
                   Financial Statements
AUD/IT/IB-12-15    Evaluation of the Broadcasting Board of Governors   Williams Adley &   Independent
                   Information Security Program                        Company, LLP       Evaluation




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012       71
72
CONGRESSIONAL AND PUBLIC
AFFAIRS ACTIVITIES


TESTIMONY AND BRIEFINGS
    •	 On November 2, 2011, Assistant Inspector General for Audits (AIGA) Evelyn
       R. Klemstine testified before the House Oversight and Government Reform
       Subcommittee on Technology, Information Policy, Intergovernmental Relations,
       and Procurement Reform on “Government Contractors Exploiting Workers
       Overseas: Examining Enforcement of the Trafficking Victims Protection Act.”
       The focus was on enforcement of the Trafficking Victims Protection Act of
       2000 (Public Law 106-386), as amended. She testified with representatives of the
       Department of Defense (DOD) and the DOD Inspector General. The subcom-
       mittee requested that the Department, DOD, and USAID, as well as their
       respective IG offices, submit, by February 1, a summary of better approaches to
       trafficking-in-persons (TIP) oversight and enforcement.
    •	 On December 7, 2011, Deputy Inspector General Harold W. Geisel testi-
       fied before the House Oversight and Government Reform Subcommittee
       on National Security, Homeland Security, and Foreign Operations on
       “Oversight of Iraq and Afghanistan: Challenges and Solutions.” The focus
       of the subcommittee’s interest pertained to two OIG reports on Embassy
       Baghdad’s 2011 planning and transition to civilian control.
    •	 On March 27, 2012, in a followup hearing on TIP enforcement, AIGA Klemstine,
       along with other Department and DOD representatives, discussed OIG’s views
       on strengthening enforcement of TIP in Government contracts, including
       strengthening the legal framework for enforcing TIP compliance and prosecut-
       ing TIP violators, establishing requirements in future contracts to make contrac-
       tors more accountable for TIP compliance, and holding contracting officers and
       contracting officer’s representatives responsible for TIP oversight. The AIGA
       stated that OIG “will continue to vigorously perform its oversight role to ensure
       that the Department is properly discharging its programmatic responsibilities.”
During this reporting period, OIG’s briefings to congressional staff included the following:
    •	 Two OIG current operations briefings: one for the Senate and one for the
       House Appropriations Subcommittees on Foreign Operations. These March
       2012 briefings outlined the past year’s work, current activities, and planned
       oversight in FY 2013 and included a discussion of OIG resources.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   73
        •	 Briefings for the Senate Judiciary Committee staff and for the Senate Foreign
           Relations Committee staff were held during December 2011 and March
           2012. The briefings focused on recently issued OIG audit and inspection
           reports and ongoing inspections and planned audits.
        •	 OIG senior staff, along with DoD Inspector General and USAID OIG staff,
           briefed three committees in January 2012 on draft legislation on trafficking
           in persons (TIP) and OIG TIP enforcement assessments. Senior staff from
           the Senate Judiciary, Senate Foreign Relations, and House Oversight and
           Government Reform Committees attended.
        •	 OIG Audits staff briefed congressional staff on the report Department of State
           Process to Award the Worldwide Protective Services Contract and Kabul Embassy
           Security Force Task Order, AUD/SI-12-15, December 2011.


     CONGRESSIONAL MANDATES AND REQUESTS
     In March 2012, OIG concluded fieldwork on a review at the request of Senators
     Rand Paul and Charles Schumer regarding the immigration of two Iraqi nationals to
     Kentucky during 2009. OIG is one of six Inspectors General that received requests
     from the senators to review the matter. Three additional reviews were conducted
     at congressional request, including a best value-low cost assessment of local guard
     contracting (Senate Foreign Relations Committee); a logistics program evaluation
     for Embassy Baghdad (Senate Appropriations Committee) and special review of the
     Keystone XL Pipeline Permit Process (bicameral/14 Members).
     As mandated by the Chief Financial Officers Act of 1990 (Public Law 101-576, as
     amended), OIG directed and monitored the following financial statement audits:
        •	 Independent Auditor’s Report on the U.S. Department of State 2011 and 2010
           Financial Statements, AUD/FM-12-05, November 2011
        •	 Independent Auditor’s Report on the Broadcasting Board of Governors 2011 and
           2010 Financial Statements, AUD/IB-12-07, November 2011
     As mandated by the Federal Information Security Management Act of 2002
     (FISMA) (44 U.S.C. § 3545), OIG issued the following reports:
        •	 Evaluation of Department of State Information Security Program,
           AUD/IT-12-14, November 2011
        •	 Evaluation of the United States Section, International Boundary and Water
           Commission, Information Security Program, AUD/IT-12-16, November 2011
        •	 Evaluation of the Broadcasting Board of Governors Information Security
           Program, AUD/IT-12-15 November 2011


74
In accordance with the American Recovery and Reinvestment Act (Public Law
111-5), OIG issued the following reports:
    •	 Audit of Funding Provided by the American Recovery and Reinvestment Act for
       the Foreign Affairs Security Training Center, AUD/CG-12-13, December 2011
    •	 Audit of International Boundary and Water Commission Construction Contract
       With Inuit Services, Inc., Using Funds Provided by the American Recovery and
       Reinvestment Act, AUD/CG-12-10, November 2011
    •	 Audit of International Boundary And Water Commission Construction Contract
       With Sun Belt Builders, Inc., Using Funds Provided by the American Recovery
       and Reinvestment Act, AUD/CG-12-11, December 2011
In compliance with the Improper Payments Elimination and Recovery Act of 2010,
OIG issued the following reports:
    •	 Audit of Broadcasting Board of Governors Compliance With the Improper
       Payments Information Act, AUD/IB-12-32, March 2012
    •	 Audit of Department of State Compliance With the Improper Payments
       Information Act, AUD/FM-12-31, March 2012
To fulfill its responsibilities under the William Wilberforce Trafficking Victims
Protection Reauthorization Act of 2008 (Public Law 110-457), OIG issued the follow-
ing report:
    •	 Audit of Bureau of East Asian and Pacific Affairs Compliance With Trafficking
       in Persons Requirements, AUD/IP-12-02, October 2011


LEGISLATION MONITORED
OIG monitored the following legislation during the reporting period:
    •	 Continuing Appropriations Act, FY 2012 – Public Law 112-36.
    •	 Senate Foreign Relations Authorization Act for Fiscal Years 2012-13 (pending).
    •	 Foreign Relations Authorization Act, Fiscal Year 2012, Section 201, H.R. 2583
       (pending).


MEDIA RELATIONS AND OUTREACH
During this semiannual period, OIG made its reports available to the media and
other interested parties both directly and online through regular postings on its
public Web site. OIG also sent out more than 60 announcements through its Twitter


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   75
     account, “tweeting” to a base of nearly 1,000 “followers” when new reports or jobs
     were posted or when OIG participated in a congressional hearing.
     OIG continues to improve its Web sites with the goal of enhancing their relevance
     and usefulness. In response to user feedback, OIG further refined the organization
     and formatting of its sites to increase ease of use and accessibility to information.
     These enhancements included reorganizing navigation panels, incorporating links
     and cross-links to library subpages, and adding the specific date on which a report
     was posted to the site. Additionally, the search function on the public site was opti-
     mized to help users find reports more quickly and easily.
     Internal SharePoint site enhancements included creating a comprehensive Inspections
     Resources section and “month” and “year” views for the document libraries, as well
     as creating several new Innovative Practice case studies and new OIG Activities photo
     slide shows.
     Media expressed interest in a broad range of OIG activities and initiatives, resulting
     in 52 direct responses to eight different issues.
     Listed in order of interest, the issues that drew the greatest number of media inquiries
     were the following:
         •	 Special Review of the Keystone XL Pipeline Permit Process (AUD/SI-12-28) –
            Requests for information about this report accounted for 38 of the 52 total
            inquiries.
         •	 Inspection of the Bureau of Educational and Cultural Affairs (ISP-I-12-15).
         •	 Multiple inquiries about post reports that provided information on the
            performance of political appointees, including Embassy Luxembourg,
            Luxembourg (ISP-I-11-17A) January 2011; Embassy Valletta, Malta
            (ISP-I-11-16A) February 2011; and Inspection of Embassy Nassau,
            The Bahamas (ISP-I-12-08A).
         •	 Memorandum Report - Review of the FY 2012 Diversity Visa Program Selection
            Process, ISP-I-12-01.
     Additional inquiries included various reports on Department contracts for worldwide
     protective services; Inspection of Embassy Beirut, Lebanon (ISP-I-12-10A); Department
     of State Planning for the Transition to a Civilian-Led Mission in Iraq, Performance
     Evaluation (MERO-I-11-08) May 2011; and several inquiries about the ongoing
     Inspector General vacancy at the Department and possible OIG investigations.
     Foreign Delegations: OIG regularly meets with officials from around the world
     to discuss a range of issues related to government oversight. During the latest SAR
     period, OIG met with representatives from Belgium, Hungary, South Sudan, Turkey,
     the Czech Republic, and Norway.



76
ABBREVIATIONS

 Abbreviation          Full Name

 A/GIS/GPS             The Bureau of Administration, Global Information Services,
                       Global Publishing Solutions
 A Bureau              Bureau of Administration
 AFR                   Agency Financial Report
 AIGA                  Assistant Inspector General for Audits
 AUD                   OIG Office of Audits
 BBG                   Broadcasting Board of Governors
 CA                    Bureau of Consular Affairs
 CFR                   compliance follow-up review
 CIGIE                 Council of the Inspectors General on Integrity and Efficiency
 CO                    contracting officer
 Department            U.S. Department of State
 DOD                   Department of Defense
 DCM                   Deputy Chief of Mission
 DIN                   dedicated Internet network
 DS                    Bureau of Diplomatic Security
 DV                    Diversity Visa Program
 EAP                   emergency action plan
 ECA                   Bureau of Educational and Cultural Affairs
 EPLS                  Excluded Parties List System
 EIS                   Environmental Impact Statement
 EAP                   emergency action plan
 FASTC                 Foreign Affairs Security Training Center
 FBI                   Federal Bureau of Investigation
 FISMA                 Federal Information Security Management Act of 2002
 FOIA                  Freedom of Information Act
 FSI                   Foreign Service Institute
 IBB                   International Broadcasting Bureau
 IBWC                  International Boundary and Water Commission
 ICE                   U.S. Immigration and Customs Enforcement
 INV                   OIG Office of Investigations
 IPERA                 Improper Payments Elimination and Recovery Act of 2010




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2011 TO MARCH 31, 2012   77
     Abbreviation   Full Name

     IPIA           Improper Payments Information Act of 2002
     IT             information technology
     JMO            Tri-Mission Vienna Joint Management Office
     M/PRI          Office of Management Policy, Rightsizing and Innovation
     MERO           Middle East Region Operations
     NEA            Bureau of Near Eastern Affairs
     NEPA           National Environmental Policy Act
     NID            National Interest Determination
     OBO            Bureau of Overseas Buildings Operations
     OIG            Office of Inspector General
     ONDCP          Office of National Drug Control Policy
     OPM            Office of Personnel Management
     OSCE           Organization for Security and Cooperation in Europe
     PAR            Performance and Accountability Report
     PEPFAR         President’s Emergency Plan for AIDS Relief
     PIERS          Passport Information Electronic Records System
     PM/WRA         Bureau of Political-Military Affairs, Office of Weapons Removal and Abatement
     QDDR           Quadrennial Diplomacy and Development Review
     R&R            rest and recuperation
     Recovery Act   American Recovery and Reinvestment Act
     RFA            Radio Free Asia
     RM             Bureau of Resource Management
     RPSO           Regional Procurement Support Office
     RRB-OIG        Railroad Retirement Board, Office of Inspector General
     SAR            Semiannual Report to the Congress
     S/SRAP         Special Representative for Afghanistan and Pakistan
     SCA            Bureau of South Central Asian Affairs
     TIP            trafficking in persons
     TVPA           Trafficking Victims Protection Act of 2000
     UNVIE          U.S. Mission to International Organizations in Vienna
     USOSCE         U.S. Mission to the Organization for Security and Cooperation in Europe
     USAID          U.S. Agency for International Development
     VOA            Voice of America




78
                   Index of Reporting Requirements
          Inspector General Act of 1978, as amended

Requirement            Subject                                                     Page Number(s)

Section 4(a)(2)        Review of legislation and regulations                             75

Section 5(a)(1)        Summary of Significant problems, abuses, and deficiencies         3-6

Section 5(a)(2)        Significant recommendations for corrective action              39-46, 69

Section 5(a)(3)        Prior significant recommendations unimplemented             39-43, 46-48, 69

Section 5(a)(4)        Matters referred to prosecutive authorities                      27-29

Section 5(a)(5)        Information or assistance refused                                none

Section 5(a)(6)        List of reports issued                                         33-35, 65

Section 5(a)(7)        Summaries of significant reports                              9-26, 59-61

Section 5(a)(8)        Reports – questioned costs                                      37, 67

Section 5(a)(9)        Reports – funds to be put to better use                         38, 68

Section 5(a)(10)       Prior reports unresolved                                    43-46, 48-50, 69

Section 5(a)(11)       Significant revised management decisions                       46, 50, 69

Section 5(a)(12)       Significant management decisions with which OIG disagreed        none

Section 5(a)(14)       Peer review results                                               55

Section 5(a)(15)(16)   Status of peer review recommendations                             55
   United States Department of State
and the Broadcasting Board of Governors
       Office of Inspector General
